<html>
<title> - A REVIEW OF VETERANS PREFERENCE IN FEDERAL GOVERNMENT HIRING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









      A REVIEW OF VETERANS PREFERENCE IN FEDERAL GOVERNMENT HIRING

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 20, 2016

                               __________

                           Serial No. 114-67

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-156                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

































                            C O N T E N T S

                              ----------                              

                       Wednesday, April 20, 2016

                                                                   Page

A Review Of Veterans Preference In Federal Government Hiring.....     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2

                               WITNESSES

Honorable Michael H. Michaud, Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     3
    Prepared Statement...........................................    21
Ms. Carin M. Otero, Associate Deputy Assistant Secretary for HR 
  Policy and Planning, Office of Human Resources and 
  Administration, U.S. Department of Veterans Affairs............     5
    Prepared Statement...........................................    24
Mr. Mark D. Reinhold, Associate Director for Emmployee Services, 
  U.S. Office of Personnel Management............................     6
    Prepared Statement...........................................    25
Mr. Aleks Morosky, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States, Prepared 
  Statement only.................................................    29
Mr. Daniel P. Smith, Assistant Director, Veterans Employment & 
  Education Division, The American Legion, Prepared Statement 
  only...........................................................    30
Mr. Rick Weidman, Executive Director, Government Affairs, Vietnam 
  Veterans of America, Prepared Statement only...................    32

                           MATERIAL SUBMMITED

Requested Material by Congresswoman Rice.........................    34
 
      A REVIEW OF VETERANS PREFERENCE IN FEDERAL GOVERNMENT HIRING

                              ----------                              


                       Wednesday, April 20, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Wenstrup, Zeldin, Costello, 
Takano, and Rice.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Good afternoon, everyone. The Subcommittee 
will come to order. I want to thank you all for joining us here 
today to discuss the role of veterans preference in the Federal 
hiring process.
    Some form of veterans preference has been a fixture in 
Federal hiring since the Civil War, and while it is clear that 
the Federal government does do a good job of hiring veterans, 
we need to look at ways to modernize current rules and 
regulations, increase enforcement, and change, overall, the 
bureaucratic attitudes about hiring veterans.
    In theory, veterans and disabled veterans should be 
eligible for the 10- or 15-point preference in the competitive 
or excepted service, which should act as a tiebreaker, so that 
if you have two equally qualified candidates for one job, and 
one of them is a veteran, then they should receive the 
position.
    In reality, veterans preference is often thwarted by an 
overly complicated competitive or excepted service system, as 
well as a feeling of unfairness from veterans' civilian 
counterparts who are also applying for jobs in the Federal 
government.
    What is more disappointing is that this Committee hears 
complaints on both sides of the issue. It is not uncommon for 
VA hiring managers to complain that they always try to use a 
special hiring authority to hire a new employee because when 
they use the competitive hiring service they get back a 
certification list from VA's HR that blocks qualified 
nonveteran candidates and only lists nonqualified veteran 
candidates. And I am sure that this is an issue facing HR. 
officials across the Federal government.
    On the flip side, it is not uncommon for us to hear from 
veterans who were blocked by HR officials or managers for 
consideration because of their bias against veteran candidates. 
A recently uncovered court document highlighted this bias where 
a senior official at one VA hospital said that when hiring for 
positions at their hospital, they gave more credit to a 
candidate who was involved in community organizations, like the 
Boy Scouts or something like that, than those with veteran 
status. When asked if they always tried to hire veterans, the 
official was quoted as saying: ``Not really, and thank God.''
    Now, I believe personally that veterans are what they were 
in uniform, selfless and able to put the needs of others ahead 
of themselves. But that comment about ``Not really, and thank 
God'' is the type of institutional bias that has to be 
eliminated from the Department and governmentwide. I can only 
hope that this official's views represent the smallest minority 
of VA and government hiring managers, but I am not sure.
    It is also concerning to me that while veterans make up 
approximately 33 percent of VA's workforce, a recent media 
report highlighted that only 13 percent of VA senior managers 
are veterans. I do understand that with education and 
experience come opportunities for promotion. It is critical 
that VA and all government agencies find ways to improve 
veterans hiring for management positions as well.
    I look forward to hearing from our witnesses today about 
how to modernize veterans preference rules and regulations and 
how Federal government agencies, like OPM and DOL, are 
enforcing current laws. The Committee will continue its work on 
hiring reforms at VA and the Federal government, and I am 
hopeful that a meaningful and frank conversation today will 
assist us in these efforts.
    I now yield to my colleague, Ranking Member Takano, for any 
opening statement he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman.
    First, I want to say what a pleasure it is to have 
Assistant Secretary Michaud back in the House Veterans' Affairs 
Committee.
    Welcome back, sir.
    Veterans have a devoted and highly informed ally at DOL 
vets, and we are looking forward to working together with him 
on policies that will help veterans transition to civilian life 
and find meaningful jobs.
    Chairman Wenstrup, I appreciate your decision to call this 
hearing, even though veterans preference policies fall under 
Title 5 and are not part of this Committee's jurisdiction, 
there is no doubt that Members of this Subcommittee on both 
sides of the aisle want to learn how we can improve the 
process.
    Federal jobs allow veterans to continue the public service 
they began when they entered the military, and veterans 
preference in the Federal hiring process is an important aspect 
of how we as a Nation reward those who chose to serve. These 
policies are meant to ensure that veterans seeking Federal 
employment are not penalized for their time spent in military 
service, especially after being deployed overseas during 
wartime.
    Veterans preference restores veterans to a favorable 
competitive position for government employment and acknowledges 
the larger obligation that we as a society owe to disabled 
veterans. Most importantly, veterans preference hiring policies 
make good business sense, as we will hear from our witnesses 
today.
    Our Nation invests significant resources into training and 
developing our servicemembers, and Federal agencies directly 
benefit from this training when they hire veteran employees. 
Veterans are trained in a wide variety of valuable skills and 
experiences during their time in the military.
    To name just a few examples, the skills gained while 
leading others, making quick decisions, and developing strategy 
directly translate into management roles in the Federal 
government. And experience in fields like IT and cybersecurity 
help advance the missions of our Federal agencies by filling 
crucial skills gaps.
    While veterans preference policies do not guarantee 
veterans a job, they provide useful tools in the application 
process for qualified candidates. I am pleased that we will be 
reviewing the program from the veteran's point of view as 
opposed to reviewing it from a managerial perspective as they 
do at the Oversight and Government Reform Committee.
    I appreciate all of the witnesses being here today and look 
forward to the opportunity to ask questions and have the 
benefit of your answers.
    Thank you. And I yield back, Mr. Chairman.
    Mr. Wenstrup. Thank you, Mr. Takano.
    I now want to recognize our first panel of witnesses today. 
On our first panel, we have the Honorable Michael H. Michaud, 
Assistant Secretary of the Veterans' Employment and Training 
Service at the U.S. Department of Labor; Ms. Carin M. Otero, 
the Associate Deputy Assistant Secretary for HR Policy and 
Planning for the Office of Human Resources and Administration 
at the U.S. Department of Veterans Affairs; and Mr. Mark D. 
Reinhold, the Associate Director for Employee Services for the 
U.S. Office of Personnel Management.
    Assistant Secretary Michaud, it is a pleasure to have you 
back with us today in this hearing room. And I appreciate, 
personally, the outreach that you took upon yourself since 
accepting your position. It is appreciated very much. So let's 
begin with you, and you have 5 minutes for your opening 
statement.

                STATEMENT OF MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman. And good 
afternoon, Mr. Chairman, Ranking Member, and distinguished 
Members of Subcommittee. Thank you for the opportunity to 
participate in today's hearing.
    I appreciate the opportunity to discuss the Department's 
performance with and responsibility to veterans preference in 
Federal government hiring. While the employment situation for 
veterans continue to improve with veterans' unemployment being 
lower than nonveterans' unemployment, DOL will not rest as long 
as any veteran needs assistance finding meaningful civilian 
employment.
    The Department is committed to following veterans 
preference in our hiring. We have steadily increased the 
percentage of veterans in the DOL workforce from 20.6 percent 
in fiscal year 2013 to 21.4 percent in fiscal year 2015. In 
fiscal year 2015, one in three new hires at DOL was a veteran, 
of which 37.5 percent of those veterans hired were veterans 
with a rated disability of at least 30 percent.
    DOL's Veterans Employment Program Office provides 
leadership and direction for the Department to ensure DOL 
attracts, hires, and retains qualified veterans. In November 
2009, President Obama issued Executive Order 13518, which 
created the Veterans Employment Initiative to enhance 
recruitment of and promote employment opportunities for 
veterans within the executive branch.
    Executive Order 13518 also established the Council on 
Veterans Employment. The Council is still working to complete 
its fiscal year 2015 report, but has published data for fiscal 
year 2014, when 33.2 percent of the executive branch new hires 
were veterans, a 9.2 percent point increase over the fiscal 
year 2009 baseline of 24 percent. Veterans currently represent 
30.8 percent of the Federal workforce as compared to 25.8 
percent in fiscal year 2009.
    Under the Veterans Employment Opportunities Act, or VEOA, 
VETS is responsible for investigating claims alleging a Federal 
agency failure to apply veterans preference in hiring or during 
a reduction in force. While VETS has investigative 
responsibility, OPM is responsible for interpreting and 
administrating the statutes and regulations governed by 
veterans preference in Federal hiring and during a reduction in 
force.
    When a complaint is filed, VETS field staff investigate if 
rights have been violated by a Federal agency during either a 
hiring process or a reduction in force. Upon reaching the 
determination, VETS notifies the agency and advises on action 
to be taken to comply with the VEOA. If the agency complies, 
the case is closed as either settled or granted based on 
agreement between the parties. The resolution depends on the 
violation that occurred and may include payments, back 
payments, or benefits.
    If the agency fails to comply, the claimant is notified of 
his or her rights to appeal the case to the United States Merit 
System Protection Board, or the MSPB. Finally, if the MSPB 
issues a decision adverse to the claimant, the claimant may 
further appeal to the court of appeals for the Federal circuit.
    If VETS determines that a VEOA violation has taken place or 
there is evidence of a violation, a copy of the complete case 
file, including the complaint information and supporting 
documentation, is forwarded to the United States Office of 
Special Counsel.
    Of the 606 complaints received in fiscal year 2015 and the 
34 cases that were carried over from fiscal year 2014, VETS 
closed 590 cases. On average, the cases were resolved in 23 
days. Of the 590 veterans preference cases closed in fiscal 
year 2015, 32, or 5.4 percent, were found to have merit in 
fiscal year 2015.
    Investigations were completed in 491 of the 590 cases. The 
remaining 99 cases were closed administratively, withdrawn by 
the claimant, or the claimant elected to proceed to the MSPB 
before the investigation concluded within the timeframe allowed 
by statute.
    The Department looks forward to working with the Committee 
in this area. Veterans are some of our strongest and most 
capable employees in the public workforce, and we are committed 
to making sure that they have a place at the Department of 
Labor in their preference rights.
    So, Mr. Chairman, Mr. Ranking Member, and Committee 
Members, this concludes my opening statement. I look forward to 
the opportunity to work with you, and I welcome your questions. 
Thank you very much. And I yield back the balance of my time.

    [The prepared statement of Michael H. Michaud appears in 
the Appendix]

    Mr. Wenstrup. All right. Good job. Under the wire.
    Thank you, sir.
    Ms. Otero, you are now recognized for 5 minutes.

                  STATEMENT OF CARIN M. OTERO

    Ms. Otero. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and Members of the Subcommittee. Thank you for 
your invitation to appear before the Subcommittee on veterans 
preference and the Department of Veterans Affairs' success in 
recruiting and hiring veterans.
    I would like to highlight the Department's commitment to 
hiring veterans. We believe that affording qualified veterans a 
statutory preference in employment is not merely the obligation 
of a grateful Nation, it is also good government and good 
business. It gives VA an advantage in recruiting and retaining 
employees from a pool of the Nation's most highly motivated, 
disciplined, and experienced preference-eligible veterans.
    VA is adamant about and consistent in ensuring the 
application of the existing Federal regulation, which requires 
the selection of all qualified preference-eligible veterans 
over other individuals when filling positions that are open to 
the general public. VA's internal hiring procedures are aligned 
with the Merit System Principles, of which the basis is to 
recruit qualified individuals from all segments of society and 
select and advance on merit after fair and open competition.
    In addition to our hiring policies and procedures that 
address veterans preference, VA's Human Resources Oversight and 
Effectiveness Office evaluates compliance with veterans 
preference laws, regulations, and policies, conducting onsite 
evaluations of human resources offices throughout VA.
    VA has focused on veterans hiring for many years. We track 
the employment of veterans by facility throughout VA. We have 
launched various programs and initiatives which have resulted 
in VA placing in the top tier of agencies employing veterans. 
As of February 29, 2016, more than 119,000, or just shy of 33 
percent, of VA's 365,000 employees are veterans. More than 
100,000 of the 33 percent are veterans preference eligibles, 
and 47,000, approximately 12 percent, are disabled veterans. VA 
proudly ranks first among nondefense agencies in hiring 
veterans.
    VA regularly uses veteran-specific special hiring 
authorities, such as the Veterans Employment Opportunities Act, 
the veterans recruitment appointment, and 30 percent or more 
disabled veterans. We have also hired veterans using the 
Schedule A authority for people with disabilities.
    In the first 5 months of fiscal year 2016, VA hired 8,705 
veterans using a mixture of all of the above-mentioned 
authorities. The Department has established a strategic target 
of 35 percent veterans for its employee population.
    One of the challenges that we face is the rate at which 
veterans are leaving the Department. While recognized early on 
by the Office of Personnel Management as having one of the 
better retention rates in government, the cohort of veterans 
who joined the Department of Veterans Affairs after the Vietnam 
war is now eligible for retirement.
    In contrast, younger veterans, similar to other U.S. 
workers their age, are frequently more mobile, changing jobs 
and employers more often than many older employees. On average, 
VA has lost about 1,300 veteran employees per month during this 
fiscal year through separations and retirements. Countering 
these losses, we have, on average, hired about 1,740 veterans 
per month during this fiscal year.
    In 2011, in support of Executive Order 13518, Employment of 
Veterans in the Federal government, VA established the Veteran 
Employment Services Office, VESO, within the Office of Human 
Resources and Administration. VESO supports the Interagency 
Council on Veterans Employment created by the executive order 
by recruiting qualified veteran candidates for critical VA 
positions, managing retention initiatives, and reporting the 
veteran hiring and retention statistics for VA to the Council 
for inclusion in its annual report to the President.
    VESO focuses on giving veterans the tools to find Federal 
jobs, making the transition to civilian employment seamless, 
and improving veteran engagement and satisfaction. Activities 
include personalized one-on-one services to support Federal 
veteran recruitment, support to retention efforts, support to 
veterans throughout a deployment life cycle, and providing 
Federal partners with services that support veterans 
recruitment.
    In closing, every day at VA, we see the sacrifices which 
veterans have made for our Nation. It is our responsibility and 
privilege to support their return to civilian employment. We 
are committed to continue our robust and successful focus on 
veterans hiring in VA.
    Chairman Wenstrup, thank you again for the opportunity to 
testify today. I am prepared to respond to any questions the 
Subcommittee may have.

    [The prepared statement of Carin M. Otero appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Ms. Otero.
    Mr. Reinhold, you are now recognized for 5 minutes.

                 STATEMENT OF MARK D. REINHOLD

    Mr. Reinhold. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee, thank you for your invitation to 
testify at today's hearing on veterans employment in the 
Federal government and OPM's role in the implementation of 
veterans preference in the Federal hiring process.
    This administration has made it a priority to honor 
veterans for their service and sacrifice in defense of our 
Nation, including assisting them in reentering civilian life 
and finding employment. In November of 2009, President Obama 
issued an executive order laying out three objectives: that we 
honor our obligations to our Nation's veterans, that we use the 
talents of veterans to help the Federal government meet today's 
dynamic challenges, and that we create a model veterans 
employment program.
    Veterans bring distinctive training, skills, leadership, 
and experiences that we need at every agency in the Federal 
government. The Federal government invests significant 
resources in the training and development of the brave men and 
women in our military. Efforts to hire transitioning military 
service personnel to positions in the Federal workforce helps 
maximize our return on this investment.
    Veterans possess a wide variety of skills and experiences, 
as well as a dedication to public service, that can be of 
enormous benefit to the government as an employer and to the 
American people that these individuals will continue to serve. 
Not only is hiring veterans the right thing to do, it also 
makes good business sense.
    Preference eligibility for veterans in Federal employment 
is defined in statute and applies to new appointments in both 
the competitive and excepted service. The technical application 
of veterans preference is defined in statute and regulation and 
varies depending on the ranking and selection method used by 
the employing agency to select candidates for Federal 
employment.
    Additionally, OPM encourages agencies to make full use of 
the various hiring authorities that can facilitate veterans 
employment. This includes veterans recruitment appointments, 
which are an excepted authority that allows agencies to appoint 
an eligible veteran without competition. Agencies may also 
noncompetitively appoint any veteran with a 30 percent or more 
service-connected disability.
    And though not specifically for veterans, the Schedule A 
authority for people with disabilities is an excepted authority 
that agencies can use to appoint eligible veterans who have a 
severe physical, psychological, or intellectual disability.
    Finally, the Veterans Employment Opportunities Act allows 
veterans to apply to job announcements that are otherwise open 
only to current or former Federal employees who completed 
requirements for career or career conditional tenure.
    These efforts have yielded good results since 2009. In 
fiscal year 2014, 33.2 percent of executive branch new hires 
were veterans, surpassing the fiscal year 2000 rate of 31 
percent. Veterans currently represent 30.8 percent of the 
Federal workforce, as compared to 25.8 percent in fiscal year 
2009.
    The Federal government has protections in place in order to 
ensure veterans are properly accorded the preference to which 
they are entitled. OPM, through our Merit System Accountability 
and Compliance Office, conducts regular reviews of agency-
delegated examining units across the government to ensure that 
veterans are receiving the preference they have earned in the 
Federal hiring process.
    Executive branch recourse exists for a veteran or other 
preference eligible who believes that his or her rights under 
any law or regulation related to veterans preference have been 
violated, a disabled veteran who believes he or she has been 
discriminated against in employment because of his or her 
disability, and the intentional failure by a government 
official to comply with veterans preference requirements.
    Public outreach is key to the government's recruiting 
efforts. We teamed with our administration partners to create 
FedsHireVets.gov to serve as the principal source for Federal 
employment information to assist our veterans, transition 
servicemembers, their families, Federal HR professionals, and 
hiring managers. The purpose of the site is to provide 
consistent and accurate Federal employment information, useful 
training, and other resources to better inform the applicant, 
the employee, and the hiring agency.
    Agencies are responsible for applying the law correctly so 
that preferences are not inappropriately withheld or granted. 
To support agencies in this effort, OPM recently launched the 
Hiring Excellence Campaign. Through this campaign, OPM is 
working directly with agency hiring managers and human 
resources staff to help them identify skills gaps and find and 
recruit the best talent to fill positions. This allows us to 
hear directly from hiring managers and supervisors, while also 
giving us the opportunity to have discussions with Federal 
agencies about the tools and flexibilities available to them, 
including those available for hiring veterans.
    We have also launched a Hiring Toolkit on HR University, 
which provides guidance on various hiring authorities and 
flexibilities, information about assessment techniques, and how 
to leverage data to inform recruiting and outreach.
    Since 2009, significant progress has been made to enhance 
employment opportunities for veterans in the Federal 
government, but we know that challenges remain and improvements 
can be made. As OPM works to meet our mission to recruit, 
retain, and honor a world class workforce, we will continue to 
focus on helping agencies bring in skilled and diverse 
employees with the best talent to serve the American people.
    Thank you for the opportunity to participate in today's 
hearing, and I welcome any questions.

    [The prepared statement of Mark D. Reinhold appears in the 
Appendix]

    Mr. Wenstrup. I thank you all for your remarks, and I will 
now yield myself 5 minutes for questions.
    I am not sure who can answer this best of the three of you, 
but I am just curious, what percent of veterans that are 
applying for jobs that are not hired end up filing a complaint? 
Or even an estimate?
    Mr. Michaud. I can follow-up, for the record with more 
information.
    Mr. Michaud. When you look at fiscal year 2015, out of the 
590 cases that were closed, 371 had no merit. Of those cases, 
359 had to do with hiring issues. I am not sure exactly how 
that is. But we can get back to you, see if staff has a further 
breakdown.
    If you look at the cases in 2015, only 5.4 percent, as I 
mentioned, had merit. In the previous year, only 2.3 percent 
had merit. So there is a huge percentage that have no merit.
    Mr. Wenstrup. So you see where I am going with this. I am 
just wondering if it is like an automatic process for people, 
that if they are not hired they just immediately make a claim. 
So that is an interesting statistic too, that out of all those, 
only 5.4 percent had merit.
    And from my understanding, and I think you touched on this, 
if someone knowingly disregarded the system, then a complaint 
should be filed. And so how do you prove that someone knowingly 
was adverse to the veteran?
    Mr. Michaud. Once the case is closed, by the Department of 
Labor, then it would be referred to the Merit System Protection 
Board. I can just talk about the Department of Labor. If you 
look at the number of cases that were filed with us, there were 
six cases in fiscal year 2015. Out of the six, one case was 
found to have merit.
    When I looked at the previous years with the low amount of 
merit, it led me to believe that the system is complex. It is 
very difficult to understand whether it is on the hiring 
managers' side or the veteran themselves as far as how the law 
applies to them. I read a couple of reports from the Merit 
System Protection Board, and they actually recommend that the 
statutes and regulations governing veterans preference should 
be consolidated and streamlined in one single body. Both 
reports, in August and November, recommended that 
recommendation.
    Mr. Wenstrup. Well, I guess I am still curious as to how 
you discover that somebody knowingly acted out of bounds on the 
rules and against the veteran, what is it that actually proves 
that. And maybe that is kind of something that needs to be 
better defined to show how they did that.
    And then in the case of someone who knowingly did that, 
what action was taken on the manager that knowingly disregarded 
the system or knowingly ruled against the veteran when they 
should not have?
    Mr. Michaud. Only cases with merit are referred to OSC for 
violations. In those cases, if they are not resolved, the 
claimant, if they are not satisfied, they can file with the 
Merit System Board. But I am not sure out of those cases how 
many are actually intentional. But we can get back to you for 
the record on that.
    Mr. Wenstrup. Yeah, I would just like to look at that 
further more on process, I guess, as much as anything else.
    And another question I have is, during the process, are 
there any points awarded for anyone else, besides veterans, for 
something in their background or their status or organization 
or affiliation with something, or are there only additional 
points awarded to veterans through the hiring process? Are 
there other point systems?
    Mr. Reinhold. So I am happy to take that one. Generally 
speaking, when agencies apply an assessment to a pool of 
candidates, they often use a numerical score to rate and rank 
those candidates.
    Veterans preference is the only provision in statute that 
provides a benefit to individuals of additional points. So for 
many veterans it is 5 points, and for disabled veterans with a 
30 percent or more service-connected disability, it is 10 
points.
    Mr. Wenstrup. So those points are in at the beginning.
    Real quickly, and maybe we can take this for the record, 
Mr. Secretary, is there any type of training or recommendations 
you may have that we can include during the TAP program to 
enhance veterans' preparation for applying with the VA or any 
other Federal government agency?
    Mr. Michaud. Thank you very much.
    Under the new curriculum, it actually talks about veterans 
preference. And what we have done for that new curriculum is 
actually we took the OPM's site as far as it relates to 
veterans preference. Plus OPM actually teaches the trainers. I 
believe they have an hour worth of training as far as it 
relates to the veterans preference piece under the TAP program. 
And the curriculum was signed off on by OPM.
    Mr. Wenstrup. Thank you, sir.
    Ms. Otero. And, sir, if I could just ask. I was integrally 
involved during the redesign of the Transition Assistance 
Program, the TAP program, and that was also in response to the 
VOW Act, the career readiness standards and a checklist to help 
the veteran be career ready, the transitioning servicemember to 
be career ready and to be their own advocate to have knowledge 
of what hiring authorities that they are eligible for, so that 
that gives them an extra punch toward their career readiness as 
they transition.
    Mr. Wenstrup. Well, thank you.
    I now recognize the Ranking Member for any questions he may 
have.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Secretary, I want to ask you about retention of 
veterans once they are hired. We have talked about the process, 
about getting the veterans preference, and recourses for 
veterans that feel that they might not have been treated 
fairly, but I want to talk about what happens in the agencies. 
What are agencies doing to retain them and what do those 
statistics look like?
    Mr. Michaud. Well, thank you very much, Mr. Ranking Member. 
I can provide you and the Committee for fiscal year 2013 and 
2014 the retention rate for veterans versus nonveterans in all 
the agencies. I will make sure we provide that to you for the 
Committee's reference.
    Mr. Michaud. Looking quickly at the list, the agency with 
the lowest retention rate had 61.54 percent for veterans, and 
the highest agency had a 88.41 percent retention rate. So it 
does vary depending on the agency, but we will provide the 
Committee with this information.
    There is actually a Council on Veterans Employment meeting 
on May 4. I had a Subcommittee meeting last week. And part of 
that discussion is to find out what agencies are doing as far 
as retention, trying to get the best practices for each agency, 
so we can get that out to all the agencies.
    Mr. Takano. Okay. Do these retention rate statistics also 
indicate whether or not they may be intentionally letting these 
veterans go before the end of their probationary period?
    I know that there were these, when I was on the community 
college board, there was always this part of the year where new 
faculty, for example, were going to run up against that moment 
by which it would become very, very difficult, under their 
tenure, to have them removed. Is there a similar sort of 
probationary period letter? There has to be some statistic on 
this as well.
    Mr. Michaud. As far as why they might leave, it could be 
for various reasons. They actually could receive a promotion 
somewhere else that will better for the veteran, or they could 
leave for another agency. So we do not delve into the reasons 
why they left, but I do have the number as far as retention. 
They could have left for various reasons.
    I have heard the comment, the anecdotal comment, that you 
just mentioned, that they just keep them there until they can 
say, ``Well, we hired a veteran,'' then they let them go. That 
would be a concern, but that is only anecdotal at this time, 
and we will definitely be keeping a very close eye on that as 
well.
    Mr. Takano. Do we have numbers on that? Do we know? I mean, 
we should be able to know, people hired under the preference, 
we should know how many of them are leaving before--
    Mr. Michaud. Oh, yes. We have numbers on the retention rate 
and how many are leaving. Not only in the veterans population, 
but also in the nonveteran population. So we do have that, 
those numbers, by agencies, and we will provide the Committee 
with that list.
    Mr. Takano. Okay.
    Mr. Michaud. And the 2015 numbers, hopefully, will be out 
soon, so you will be able to have 2013, 2014, and 2015.
    Mr. Takano. Well, I certainly would appreciate your 
office's cooperation in helping us understand what is going on 
and ascertain whether there are any patterns.
    Mr. Chairman, I yield back.
    Mr. Wenstrup. Mr. Costello, you are now recognized for 5 
minutes.
    Mr. Costello. Thank you Mr. Chairman.
    Mr. Secretary, I wanted to ask about the following. In 
talking about the training provided to servicemembers during 
TAP about veterans preference laws, do you feel that there 
needs to be any more of an emphasis or further emphasis on the 
benefits that veterans preference laws provide to 
servicemembers, specifically so that they understand what 
preferences they may be entitled to during the Federal hiring 
process?
    I will ask a second question so that you can just sort of 
take them both at the same time. Do you have any 
recommendations to improve existing veterans preference laws, 
and if so, what might they be?
    Mr. Michaud. Thank you very much.
    Veterans preference is taught in the TAP class. The 
facilitators are trained on the veterans preference piece. That 
portion of the TAP class, if you look at the curriculum book, 
is actually what was signed off by OPM, since OPM administers 
the veterans preference law and regulations.
    As far as what we need to improve, if you look at the role 
that the Department of Labor plays, we deal with the 
complaints, if someone feels that they have been violated as 
far as veterans preference. And as I mentioned earlier, the 
fact that only 5.4 percent in fiscal year 2015 and only 2.3 
percent in fiscal year 2014 were found to have merit, that 
leads me to believe, consistent with the Merit System 
Protection Board, that the statutes and regulations governing 
veterans preference should be consolidated, streamlined, so it 
will be easier to administer it and easier to understand the 
process.
    The Department of Labor track of the cases that we 
currently have. But once they leave us, getting back to the 
Chairman's question, as far as what happens after that, it goes 
to the Merit System Protection Board, and then they deal with 
that. So they would have, hopefully, a more comprehensive 
reason why they rule in a certain way. But that is something 
that I can't answer because that is outside of the Department 
of Labor.
    Mr. Costello. As a follow-up, you mentioned the word 
``feedback.'' Amongst VA employees who have taken the mandatory 
training for HR professionals and hiring managers on veterans 
preference, what type of feedback have you received from 
employees about that training, if any?
    Mr. Michaud. I would have to let VA talk about the VA 
piece. But what we do at the Department of Labor, we actually 
have a military veterans alliance, a veterans affinity group, 
that meets regularly and gives input to the senior leadership 
at the Department of Labor on how we better can recruit and 
retain employees at the Department of Labor. That is why I am 
very pleased, when you look at the overall Department, 
particularly vets, 80 percent of our employees in VETS are 
veterans.
    As far as the VA, what they do, I would leave that for the 
VA to be able to speak.
    Mr. Costello. Ms. Otero.
    Ms. Otero. Good afternoon, sir.
    As far as the training for veterans preference and for HR 
specialists and hiring managers, OPM developed a curriculum, 
and it is available on HR University, and we find that it is a 
very robust training. And we also have our VESO office, our 
Veterans Employment Service Office, that is able to help our 
hiring managers to navigate how to hire, and if they want to 
look for a 30 percent disabled veteran.
    So we are finding our hiring managers are advocating and 
they want to hire a veteran. We feel that the robustness of the 
training is there, that there is strength in the availability 
through our learning management system, through HR University, 
and that we do have the added support to provide technical 
assistance. Any of our HR specialists are able to help hiring 
managers navigate.
    Mr. Costello. And do you have within the VA any program or 
pipeline in order to recruit and retain veterans at a higher 
rate within the VA? I mean, could you describe that a little 
bit?
    Ms. Otero. I am not sure I understand what you mean about 
recruit and retain at a higher rate.
    Mr. Costello. Veterans employees that you have within the 
VA, can you describe what the VA does to recruit and retain 
employees at the VA who are veterans?
    Ms. Otero. Okay.
    Mr. Costello. I apologize.
    Ms. Otero. We recognize that some of our veterans and 
transitioning servicemembers have some challenges with the 
cultural adaptation from leaving military service to coming to 
sometimes a desk job. So we offer coaching and very strong, 
robust mentoring programs, we try to get them to feel 
connection to their job. And a lot of times it is through 
mentoring and having another VA employee who is also a veteran, 
help guide them toward career preparedness to be ready for a 
promotion when it becomes available, to get the training needed 
to build their technical skills.
    Mr. Costello. Thank you.
    Mr. Wenstrup. Miss Rice, you are now recognized for 5 
minutes.
    Miss Rice. Thank you, Mr. Chairman.
    I would like to speak with Secretary Michaud.
    First, I want to welcome you here, and thank you for your 
commitment to veterans. And you actually showed that by 
traveling all the way out to my district to visit the American 
Job Center in Hempstead in February, and everyone was very 
grateful for your visit.
    But one of the things that we constantly hear, whether it 
is in that kind of a forum where we were or in hearings like 
this, is outreach and how is it that we connect servicemembers 
to this benefit that they may not be aware of. So what is the 
outreach plan? And is there any way to quantify how many 
veterans are not aware of this, and how we can better reach out 
to them?
    Mr. Michaud. As far as outreach, this is taught at the TAP 
class when every soldier gets ready to leave the military. 
There is a portion of that that talks about veterans preference 
that is consistent with what OPM has approved.
    One of the areas, as far as outreach, we are trying to make 
it easier for soldiers or men and women who are in the TAP 
class, but once they leave, to have a refresher course. The 
Department of Labor TAP curriculum is going to be on ebook 
Reader and it is going to be on Kindle, so it will be available 
24/7. So if someone needs a refresher course, particularly as 
it relates to veterans preference, then they would be able to 
take that refresher course.
    When we do outreach, we talk about encouraging businesses 
to hire vets. And that is where a lot of our outreach has been 
in the private sector, collaborating with the chamber of 
commerce and the business community, talking about the benefits 
of hiring a veteran, and why they should hire a veteran and 
actually help them find veterans. That has been our primary 
focus on outreach.
    As far as veterans preference, each agency has a goal, that 
OPM has given guidance on, and I will let OPM talk about that. 
But we in the Department of Labor with the affinity group 
really are focused on how can we better recruit, how can we 
retain the veterans that are in the Department. And we have 
actually done a phenomenal job in the Department, and we will 
continue to encourage our HR folks to hire veterans. But as far 
as overall recruitment, that is more of an OPM question.
    Miss Rice. I think one of the earlier questions asked you 
about how many people who were not hired, veterans who were not 
hired, who would appeal.
    In your study of this, what are the most common causes of a 
Federal agency's failure to comply with the veterans preference 
provision in hiring? I mean, you said that you found that some 
were not for cause. But what were the reasons? Was it a lack of 
training? Was it intentional? What was the preference for 
someone else? I mean, what was the reason?
    Mr. Michaud. I will have to refer to staff if they know 
more in detail. But when you look at the broader issues, for 
instance in 2015 the number of cases that were found to have no 
merit, out of the 371, 359 were because of hiring. As far as 
what is in that hiring, I would have to get back to you for the 
record.
    Miss Rice. Well, but don't you think that--I mean, to me, 
that is very relevant information, because if you are talking 
about training veterans and training employers and the hiring 
is not--I mean, I just think that the reason for why someone, a 
veteran, is not hired in this preference program would be 
relevant.
    Mr. Michaud. Yeah, absolutely. When you look at that only 
5.4 percent have merit, part of the bulk of the reasoning is 
actually the lack of understanding of the law. It is a very 
complex law. It is a law where it is spread out through all of 
Title 5. And that complexity is the reason why a lot of these 
cases are found to not have merit.
    As far as the ones that do have merit and they move 
forward, I am not sure exactly the final outcome of those. But 
for the investigations that we do, it is they have no merit, 
and that is primarily because of the complexity of the law that 
is out there. And that has been consistent with what the Merit 
System Protection Board has stated in their last report.
    Miss Rice. It is complexity of the law on the part of the 
employer understanding it?
    Mr. Michaud. On the part of the veteran and/or employer. 
Some veterans think that because of veterans preference, that 
they will automatically be hired in the Federal services. That 
is not the case.
    When you look at veterans preference, you can have two very 
well qualified candidates, and if one is a veteran and one is 
not, then the veteran should get hired. But you could have 
several candidates that are very well qualified and they very 
well all could be veterans and one gets hired but four or five 
others do not get hired, you could have cases for those other 
veterans.
    Miss Rice. So I don't know how many of those top three 
choices that they can choose from are all veterans or if it is 
a civilian and a veteran. And I think that if more of these 
appeals are found to be--the smaller percentage of them have 
merit, then we have to figure out why, what the issue is with 
the majority of those cases not having merit.
    Mr. Michaud. Yeah. The issue with the investigations that 
we do at the Department of Labor is because of the complexity 
of the law and the lack of understanding of the law. Just 
because a case is filed doesn't mean that the HR manager 
violated the law. It could be that the veteran was not eligible 
in the first place. So that complexity of the law and 
complication is what I believe is driving the huge amount of 
nonmeritorious cases that are found.
    Miss Rice. Understood. Thank you.
    I yield back.
    Mr. Michaud. Thank you.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Wenstrup. Mr. Zeldin, you are now recognized for 5 
minutes.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Miss Rice, do you need any additional time?
    Miss Rice. I am sorry?
    Mr. Zeldin. Miss Rice, would you like me to yield to you 
any additional time?
    Miss Rice. I would love it. I didn't even get to--
    Mr. Zeldin. I wouldn't mind yielding a minute and a half to 
Miss Rice. Proceed.
    Miss Rice. That is very sweet. Thank you. Thank you, Mr. 
Zeldin.
    Mr. Michaud, I don't know if you wanted some of the heat to 
be off of you, not that I was putting any heat on you, but you 
were talking about the agency goals for hiring.
    If you could just talk about that very briefly, Mr. 
Reinhold, from OPM's position. Can you just explain that? In a 
minute and a half.
    Mr. Reinhold. Sure. I would be happy to.
    So it is actually a performance model that was created by 
the Veterans Employment Council in collaboration with OPM and 
other agencies, and it is designed to provide a benchmark, if 
you will, so that agencies have something to compare themselves 
to, to see how they are doing when it comes to hiring veterans 
and retaining veterans.
    It is a performance model that is comprised of four 
components, which include percentage of your new hires who are 
veterans, percentage of new hires who are disabled veterans, 
veterans as a percentage of your total workforce, and 
retention. And all of those factors are combined. Agencies are 
compared to similar size agencies, so they are compared to a 
cohort group. There is an algorithm, if you will, that 
essentially comes up with a rating for an agency ranging from 
``exemplary'' down to ``needs improvement.''
    There are not targets, but rather it is really meant to be 
informative and instructive to agencies so that they can see 
how they are doing, and they can identify areas where they need 
to improve.
    Miss Rice. What agency, in your understanding, that you are 
aware of, has the worst performance?
    Mr. Reinhold. I don't have that information, but to my 
knowledge, the ratings of ``exemplary'' through ``needs 
improvement'' are documented, and that is something we would be 
happy to follow-up on.
    Miss Rice. That would be great. Thank you very much.
    Thank you, Mr. Zeldin.
    Mr. Zeldin. Thank you again, Mr. Chairman.
    Ms. Otero, are you familiar with the statement made by Dr. 
Gonzalo Solis Sanchez of the VA's Caribbean Healthcare System 
that was quite controversial?
    Ms. Otero. I did become aware of it 2 days ago.
    Mr. Zeldin. Okay. And have you had an opportunity to look 
into it at all internally?
    Ms. Otero. I must confess, I just heard about the matter. I 
do understand that the article seemed to extrapolate some 
comments, and I haven't seen any official transcript of any 
deposition. But I just want to state emphatically that Veterans 
Affairs does not tolerate any bias, and there is no room for 
that type of behavior.
    And I have inquired with the Veterans Health 
Administration, and the doctor has been retrained. And my 
understanding is that some of his statements were taken out of 
context because he was discussing a Title 38, a pure Title 38 
position that was a medical position and where veterans 
preference is only considered if there are absolute equally 
qualified applicants, and that the veterans preference would 
then be applied as a positive factor.
    But yes, sir, I want to emphasize that there is no 
tolerance for bias or that type of statement.
    Mr. Zeldin. Okay. So just two things then on that. One, 
with regards to the words being taken out of context, what was 
reported was a transcript from a July 2014 deposition in an 
EEOC complaint where in the exchange with the doctor, when 
asked whether or not the VA provides a hiring preference, his 
response was, ``Not really, and thank God.'' But it is--this 
exchange is documented. So no one is taking anything out of 
context. It is actually word for word.
    So what is the retraining that would take place in a case 
like this?
    Ms. Otero. As a senior executive, all senior executives, 
when you are onboarded, you are given onboarding training, and 
you are told about ethics, about HR hiring, about policies. And 
so it was reiterated to the doctor what the veterans preference 
rules are, what the authorities are, and explaining that this 
is our commitment to--
    Mr. Zeldin. Do you know when that retraining took place?
    Ms. Otero. I don't know exactly because I just found out 
about the article 2 days ago, and I inquired. I just found out 
this morning that there was retraining. I don't know the date, 
but I will take it for the record.
    Mr. Zeldin. Okay. And would you be able to submit that to 
the Committee as to when the retraining took place?
    Ms. Otero. Yes, sir.
    Mr. Zeldin. Okay. And is anything usually put in writing as 
far as this retraining or counseling?
    Ms. Otero. I couldn't speak to that because if it is about 
any counseling or any discussion with that person's supervisor, 
I would not have knowledge of it, and I don't have--
    Mr. Zeldin. Okay. So you can submit to the Committee when 
the retraining took place?
    Ms. Otero. Yes.
    Mr. Zeldin. If you find out if anything was done in 
writing, would you be able to let us know that as well?
    Ms. Otero. Yes, sir.
    Mr. Zeldin. Thank you.
    Ms. Otero. I will take that for the record.
    Mr. Zeldin. I yield back.
    Mr. Wenstrup. Well, if there are no further questions, the 
panel is now excused.
    Mr. Wenstrup. And I now invite our second and final panel 
to the table.
    Mr. Wenstrup. With us today, we have Mr. Aleks Morosky, the 
Deputy Director of the National Legislative Service for the 
Veterans of Foreign Wars of the United States; Mr. Daniel P. 
Smith, the Assistant Director of the Veterans Employment & 
Education Division for the American Legion; and Mr. Rick 
Weidman, the Executive Director of Government Affairs for the 
Vietnam Veterans of America.
    I want to thank you all for being here today, for your 
service to our Nation in uniform, and for your hard work and 
advocacy on behalf of our Nation's veterans.
    In the effort of time, we are going to submit all of your 
testimonies for the record so that we can go directly to 
questions to you. And I appreciate your willingness on that 
part.

    [The prepared statements of Aleks Morosky, Daniel P Smith, 
and Rick Weidman appears in the Appendix]

    Mr. Wenstrup. And with that, I will allow myself 5 minutes 
for questions.
    Mr. Weidman, can you explain why removing the, quote/
unquote, ``knowingly'' portion in the VEOA is so important?
    Mr. Weidman. Mr. Chairman, the Veterans Employment 
Opportunities Act actually started in this room, even though it 
was considered by another Committee. And it was action of Mike 
Brinck, when he and I both had hair, in 1996, who brought in 
Mr. Mica's, John Mica's staff, who was head of that Civil 
Service Subcommittee at that time. And Mr. Mica was a great 
champion throughout the two Congresses that we had to go 
through to get here.
    When it left Mr. Mica's Subcommittee and left the Full 
Committee on the Workforce to go to the other side of the Hill, 
that word ``knowingly'' was not there. And it got inserted on 
the Senate side, specifically as a poison pill, and it has 
worked because virtually no managers have ever been 
disciplined, much less fired, for violating veterans 
preference, no matter how egregious the violation is.
    And it is OPM, not specifically the individuals who are 
here, but OPM in general and HR shops across the government 
have tried to confuse veterans preference with affirmative 
action, two totally different animals. Veterans preference is 
based on a 19th century concept of the bounty, which is reward 
for sacrifices made and service rendered, and that is the basis 
of it. That is why California, when their State Supreme Court 
threw out affirmative action, upheld veterans preference 
because it was a different philosophical base.
    Incidentally, the other thing that is different about 
veterans is we are black, we are brown, we are white, we are 
Native American, we are Asian and Pacific Islanders, men, 
women, and increasingly women. So you can satisfy every 
affirmative action guideline in the book and only hire vets, 
and in many cases only hire disabled vets.
    Mr. Weidman. But you are not going to get any enforcement 
of that across the government until you take that word 
``knowingly'' out. If somebody is a manager and doesn't 
understand veterans preference, then they ought to be 
immediately relieved and proceedings started to dismiss them 
for total incompetence.
    Mr. Wenstrup. I appreciate that. And on the other point, I 
feel that being a veteran is a qualification in and of itself 
that lends you to greater expertise in working in the VA. That 
is maybe just my personal opinion, but I find it to be true.
    Mr. Morosky, in your written statement you commented that 
veterans preference laws currently disadvantage reservists and 
guardsmen that have not served 180 consecutive days on Active 
Duty. This Subcommittee has been working with the Health 
Subcommittee to fix this and change it to 180 cumulative days 
of Active-Duty service to be eligible for veterans preference. 
Could you inform us why you believe this change is necessary?
    Mr. Morosky. Thank you, Mr. Chairman.
    Particularly in the post-9/11 era, and for Guard and 
Reservists in particular, they get activated for short periods 
of time, but several times throughout their careers. And so in 
many cases, although they are not necessarily able to 
accumulate 180 days consecutively, put together they will have 
far more than 180 days. And we feel as though that service 
should also be recognized for the purposes of veterans 
preference.
    A new topic that we hadn't been aware of has just come to 
our attention where you have veterans in some cases who are 
going to school full-time-student veterans who are being 
activated just to go fly drones on the weekends. That is good 
service. I mean, that should count towards veterans preference, 
Mr. Chairman.
    Mr. Wenstrup. Thank you very much.
    Mr. Takano, you are now recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Weidman, you state in your written testimony the 
Disabled Veteran Affirmative Action Program, or DVAAP, should 
be scrapped, that DVAAP plans for Federal entities are never 
effectively checked for the actual result against the stated 
goals at the end of each year. This thing serves no purpose 
except to be a fig leaf for agencies doing nothing or little to 
hire disabled veterans and other veterans preference eligible. 
Furthermore, veterans are not another affirmative action group, 
as you said in your oral testimony.
    My question to you is, why do you recommend scrapping the 
program rather than straighten it out? Don't these vets need 
this initiative to get jobs?
    Mr. Weidman. Implicit in that, Congressman, is that 
veterans are, in fact, an affirmative action group, and that if 
you get 30 percent of the new hires are veterans, then that is 
okay, you have met that quota.
    But that is not it. Veterans preference accrues as an 
individual right to the man or woman who takes a step forward 
pledging life and limb to defend the Constitution, particularly 
during wartime, and that is when they get veterans preference.
    So it shouldn't be included in affirmative action, and that 
is where it was stuck for years, and it is still stuck there. 
It should be with the deputy of the agency. The chief operating 
officer ought to be responsible to make sure that the agency is 
looking first to qualified veterans and disabled veterans, sir.
    Mr. Takano. So your quarrel is that it is classified as an 
affirmative action program?
    Mr. Weidman. It is that, and nobody checks. OMB has for 
years put the same--they change the number by 1 or something. 
And they have never come close to actually meeting it, but they 
submit the same plan on their Web site every year. Nobody comes 
back and says: Wait a minute, you didn't do anything towards 
recruiting disabled vets.
    Mr. Takano. All right. Thank you.
    Have votes been called?
    Mr. Wenstrup. They have.
    Mr. Takano. What are your members' main complaints with the 
veterans preference process, real quickly?
    Mr. Morosky. The main complaint that we hear is people 
apply for a job, they don't get the job, and they feel that a 
nonveteran was necessarily hired ahead of them. They don't 
understand that you have to also be qualified and meet the 
basic job qualifications in the first place.
    It is sort of a myth that veterans preference is a 
guarantee of employment in any job in the Federal government 
that you apply for. And so I think that could be helped with 
training, better training, at the TAP program. The TAP Web site 
could probably be a little bit better. Instead of being 
essentially just a narrative of the highly technical statutory 
language, maybe do a myth/fact, frequently asked questions, 
that sort of thing.
    But the main complaint we get is that people are upset 
because they didn't get hired, but they don't necessarily 
understand the system either.
    Mr. Takano. Okay. I think that kind of answered my other 
question.
    Quickly, anything to add from either one of you?
    Mr. Smith. Yes. Thank you for the question.
    The main thing is it is subjective. There is no way to know 
if veterans preference is actually being followed. You have an 
HR manager or a hiring official inside of a closed door. They 
have two applicants, one is a civilian, one is a veteran. There 
is no way of knowing if they are using veteran preference.
    I don't have a solution for that and the American Legion 
doesn't have a solution for that. Hopefully, this Committee 
could look into that. But ultimately there is no way of knowing 
if veterans preference is working, but when veterans preference 
is used, it works. I will leave it at that.
    Mr. Takano. All right.
    Mr. Weidman, anything to add.
    Mr. Weidman. The proof is in the pudding, Congressman. What 
underpins all of this, unfortunately racism and sexism are 
alive and not well within our society, but so is vetism, and it 
is every bit as ugly as racism or sexism. And people don't like 
us. And it all started during Vietnam, and it became part of 
the corporate culture of the Federal bureaucracy, and it is 
passed on. They do things, they are still doing things like, 
quote/unquote, Outstanding Scholar Program in order to get 
around veterans preference.
    When I was in school a million years ago, when I rode my 
horse up to Colgate University, 3.5 meant you were way up 
there. The median grade point average of my class was 2.7, and 
that was reflective of colleges around the country. And what 
happened in the late 1960s and 1970s was grade inflation, 3.5 
now is no big deal at a lot of institutions.
    And so it is a way to circle around veterans preference. 
Like I say, you can satisfy every affirmative action guideline 
in the world and hire only vets.
    Mr. Takano. Thank you, Mr. Chairman. I yield back.
    Mr. Wenstrup. Thank you.
    Mr. Costello, do you have any questions at this time.
    Mr. Costello. I do.
    But, Mr. Smith, if you could detail for the record--we 
don't want to miss votes--if you could detail your suggestion 
as to how you would streamline the veterans preference rights, 
any violation or allegation of violation, as well as why you 
feel that it may be necessary to streamline. I think that is an 
important question that I would like to get feedback on.
    Mr. Costello. I will yield back.
    Mr. Wenstrup. Miss Rice, you are recognized.
    Miss Rice. Thank you, Mr. Chairman.
    My question is, it is bothersome to me that a lot of 
veterans apply for positions because most of them are offered 
by either the VA, DoD, or Homeland Security. And the fact that 
they are not getting jobs there because of a lack of 
qualifications or misunderstanding of the law is bothersome 
enough.
    But I would like to just put it out to everyone for us to 
figure out a way to encourage other agencies within the Federal 
government to be as aggressive as the VA, DoD, and Homeland 
Security are, and actually pass that on to our veterans to 
understand that they don't have just these three agencies to 
choose from.
    Thank you, Mr. Chairman.
    Mr. Wenstrup. One of the things I am taking away from this 
is that we don't really have a definitive system that we are 
working with on this, that we don't have a defined set of rules 
that we can follow.
    I agree with you, Mr. Weidman, on the ``knowingly'' 
portion. It certainly changes things. One of the things I was 
trying to get to is, what are the criteria and how do you prove 
knowingly. And so we should have a system in place, and that is 
something that we need to work on.
    So I want to thank you all for being here today and for 
taking the time to discuss these issues and for your testimony. 
It is valuable to us.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. Without objection, so ordered.
    Mr. Wenstrup. And this hearing is now adjourned. Thank you.

    [Whereupon, at 3:37 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                Prepared Statement of Michael H. Michaud
                              Introduction
    Good afternoon, Chairman Wenstrup, Ranking Member Takano, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing. As Assistant Secretary 
for the Veterans' Employment and Training Service (VETS) at the 
Department of Labor (DOL or Department), I appreciate the opportunity 
to discuss the Department's performance with and responsibility to 
veterans' preference in federal government hiring.
    It is also my personal privilege to return to this room once more, 
now as a member of the Executive Branch. I have proud memories of the 
great work done by the Committee while I was a member - or should I say 
``in spite of my having been a member.'' All kidding aside, the House 
Veterans Affairs Committee has a sacred duty, so eloquently put by 
Abraham Lincoln, ``to care for him who shall have borne the battle and 
for his widow, and his orphan.'' I am pleased to report that I found 
the spirit of that commitment alive and well at the Department of Labor 
upon my arrival there five months ago.
    While the employment situation for veterans continues to improve, 
and last month marked 23 of 24 months with veterans' unemployment being 
lower than nonveteran unemployment, DOL will not rest as long as any 
veteran needs assistance finding meaningful civilian employment. A 
great place for our veterans to find such employment is through 
continued public service as a Federal employee, as a third of all new 
Federal hires last year have learned for themselves.
           Employment Situation of Veterans - 2015 BLS Report
    Every March, DOL's Bureau of Labor Statistics (BLS) releases an in-
depth report on the employment situation of veterans. In 2015, 21.2 
million men and women were veterans. Veterans are more likely to be men 
(only 9% are women) and older than nonveterans. In part, this reflects 
the characteristics of veterans who served during World War II, the 
Korean War, and the Vietnam era. Veterans who served during these 
wartime periods accounted for 42% (8.9 million) of the total veteran 
population in 2015. One-third of veterans (7.0 million) served during 
the Gulf War-era I (August 1990 to August 2001) or Gulf War-era II 
(September 2001 forward). Another quarter (5.3 million) served outside 
the designated wartime periods.
    Regardless of their period of service, many veterans with a 
service-connected disability worked, or are working, in the public 
sector. In August 2015, 36% of employed veterans with a disability 
worked in Federal, state, or local government, compared with 20% of 
veterans with no disability and 13% of nonveterans. Among the employed, 
25% of veterans with a disability worked for the Federal government, 
compared with 7% of veterans with no disability and 2% of nonveterans.
    A higher proportion of employed Gulf War-era II veterans worked in 
the public sector in 2015 than employed nonveterans-26% and 14%, 
respectively. Among the employed, 14% of Gulf War-era II veterans 
worked for the Federal government, compared with 2% of nonveterans.
             Veterans Preference at the Department of Labor
    The Department is committed to following veterans' preference in 
our hiring. As Secretary Perez has said, we are not just an 
organization that promotes veterans' employment. We practice what we 
preach. We have steadily increased the percentage of veterans in the 
DOL workforce from 20.6% in Fiscal Year (FY) 2013 to 21.4% in FY 2015. 
In FY 2015, one in three new hires at DOL was a veteran, and one in six 
of all new hires was a veteran with a rated disability of at least 30%. 
And the vast majority of the staff at VETS are veterans.
    DOL's Veterans Employment Program Office (VEPO) within the Office 
of Diversity and Inclusion provides leadership and direction for the 
Department's Veterans Employment Program to ensure DOL attracts, hires, 
and retains qualified veterans who have served and sacrificed in 
defense of our country. In addition, the VEPO provides advisory 
services, outreach, training, career development and promotional 
opportunities in support of the government-wide veterans hiring 
initiative, the Department of Labor's mission, our partners, our 
employees, our customers, and the veteran community.
    The increased hiring of veterans within DOL allows the Department 
to capitalize on their unique and diverse backgrounds, and to benefit 
from the leadership and technical skills they learned or enhanced while 
serving on active duty. Our DOL workforce is strengthened through our 
increased employment of veterans, who understand the critical 
importance of education and training as the basis for success in 
accomplishing tasks on a personal as well as on a national level.
                        DOL REPRESENTATION RATES
    At the end of FY 2015, the Department had a total workforce of 
15,937, of which 3,419 (21.4%) were veterans.
    In FY 2015, DOL employed a greater percentage of disabled veterans 
than in FY 2014. Specifically, in FY 2015, DOL's workforce included 
1,605 (10.0%) veterans with disabilities compared to 1,503 (9.4%) in FY 
2014.
    In FY 2015, DOL employed a greater percentage of veterans with a 
rated disability of at least 30% than in FY 2014. In FY 2015, the DOL 
workforce included 1,109 (7.0%) of these veterans compared to FY 2014, 
when the DOL workforce included 1,017 (6.4%).
                            DOL HIRING RATES
    Of DOL's FY 2015 veteran hires (440), 236 (53.6%) were veterans 
with disabilities. The number of disabled veteran hires increased 
nearly 32% compared to FY 2014, when 179 of our veteran hires were 
veterans with disabilities. Significantly, 165 (37.5%) of our FY 2015 
veteran hires were veterans with a rated disability of at least 30%. 
This represented an 18.7% increase over the previous year, when 139 of 
our veteran hires were veterans with a rated disability of at least 
30%.
                    Veterans' Employment Initiative
    In November 2009, President Obama issued Executive Order 13518, 
which created the Veterans Employment Initiative to enhance recruitment 
of and promote employment opportunities for veterans within the 
Executive Branch, consistent with merit system principles and veterans' 
preferences prescribed by law. Executive Order 13518 also established 
the Council on Veterans Employment (Council). We are proud that the 
Secretary of Labor co-chairs that Council with the Secretary of the 
Department of Veterans Affairs (VA). The Director of the Office of 
Personnel Management (OPM) serves as vice-chair of the Council.
    The Council is still working to complete its FY 2015 report, but 
has published data for FY 2014 when ``33.2 percent of Executive Branch 
new hires were veterans, surpassing the FY 2013 rate of 31 percent. a 
9.2 percentage point increase over the FY 2009 baseline of 24.0 
percent. Veterans currently represent 30.8 percent of the Federal 
workforce, as compared to 25.8 percent in FY 2009.''
    Secretary Perez is committed to fairly executing veterans' 
preference not only at DOL, but also across the Federal government. 
Under his co-leadership with VA and OPM, in 2014, the Council published 
its Strategic Plan for Government-wide Veterans Recruitment and 
Employment. The plan covers FY 2014 to FY 2017 and emphasizes the 
hiring and retention of veterans.
       The Role of VETS in Veterans' Preference in Federal Hiring
    Under the Veterans' Employment Opportunities Act (VEOA), 5 U.S.C. 
Sec. Sec.  3330a-3330c, VETS is responsible for investigating claims 
alleging a Federal agency's failure to apply veterans' preference in 
hiring or during a reduction-in-force, as well as claims from veterans 
alleging a lack of access to a Federal agency's covered employment 
opportunities. While VETS has investigative responsibilities, it is 
important to note that OPM is responsible for interpreting and 
administering the statutes and regulations governing veterans' 
preference in Federal hiring and during reductions- in-force.
    Under 5 U.S.C. Sec. Sec.  2108 and 3304(f), as added by the VEOA, 
preference-eligible spouses and those persons with ``derived'' 
preference (e.g., spouses of disabled veterans), as well as veterans 
who have been separated from the Armed Forces under honorable 
conditions after three years or more of active military service, are 
allowed to apply for certain Federal merit promotion opportunities for 
which an agency accepts applications from individuals outside its own 
workforce. Under 5 U.S.C. Sec.  3330a, VEOA also provides that 
preference-eligibles who allege their rights have been violated under 
any statute or regulation relating to Veterans' Preference may file a 
claim with VETS.
    When a complaint is filed, VETS field staff investigate if rights 
have been violated by a Federal agency during either a hiring process 
or a reduction-in-force. Upon reaching a determination, VETS notifies 
the agency of the determination and advises on actions to be taken to 
comply with the VEOA.
    If the agency complies, the case is closed as either settled or 
granted, based on agreement between the parties. The resolution depends 
on the violation that occurred and may include payment of back wages 
and benefits.
    If the agency fails to comply, VETS advises the claimant of VETS' 
inability to resolve the issue and closes the investigation case file. 
In those circumstances, the claimant is notified of his or her right to 
appeal the case to the United States Merit Systems Protection Board 
(MSPB) against the federal agency determined to have violated his or 
her VEOA rights. Finally, if the MSPB issues a decision adverse to the 
claimant, the claimant may further appeal to the Court of Appeals for 
the Federal Circuit.
    If VETS determines that a VEOA violation has taken place, or there 
is evidence of a violation, a copy of the complete case file, including 
the complaint information and supporting documentation, is forwarded to 
the United States Office of Special Counsel (OSC), after the case is 
closed, as a potential prohibited personnel practice (PPP) case for 
review under a Memorandum of Understanding between OSC and VETS. OSC's 
role is to ascertain whether a PPP has taken place pursuant to 5 U.S.C. 
Sec.  2302(b)(11), which provides that a Federal employee who has 
authority over personnel decisions may not:

    (a) knowingly take, recommend, or approve any personnel action if 
the taking of such action would violate a veterans' preference 
requirement; or
    (b) knowingly fail to take, recommend, or approve any personnel 
action if the failure to take such action would violate a veterans' 
preference requirement.

    OSC's review of the VEOA complaint does not affect VETS' 
investigation. OSC's review for PPPs is a separate matter, and OSC's 
review occurs after VETS' investigation and attempt to settle a case. 
Further, OSC's review has no impact on the claimant's right to appeal 
to the MSPB or to the Federal Circuit Court. Instead, OSC reviews cases 
to determine if PPPs took place that warrant disciplinary action 
against the agency or its responsible personnel.
    VETS maintains an interactive Veterans' Preference Advisor that 
provides information and advice in an electronic format on the roles 
and responsibilities of both employers and employees regarding 
Veterans' Preference issues. In particular, the Advisor helps veterans 
determine the types of preferences and benefits to which they are 
entitled, and if they determine they may have been denied their 
Veterans' Preference rights, the Advisor explains the process for 
filing a complaint, and provides an electronic capability to file a 
complaint form. The Advisor can be found on the Department's ``elaws'' 
website at http://www.dol.gov/elaws/vetspref.htm. VETS also provides 
its investigators with a ``Veterans' Preference Operations Manual,'' 
which, among other things, provides uniform guidance for processing 
complaints brought by preference-eligible veterans who allege a denial 
of their rights under the provisions of the VEOA.
    Tables 1 and 2 below display the total number of Veterans' 
Preference cases investigated by VETS and associated outcomes, during 
FY 2015. Of the 606 complaints received in FY 2015, and the 34 cases 
carried over from FY 2014, VETS closed 590 cases. On average, cases 
were resolved in 23 days.
    Of the 590 Veterans' Preference cases closed in FY 2015, 32 (5.4%) 
were found to have merit. Investigations were completed in 491 (83.2%) 
of the 590 cases. The remaining 99 cases were closed administratively, 
withdrawn by the claimant, or the claimant elected to proceed to the 
MSPB before the investigation concluded within the time frame allowed 
by statute. \1\
---------------------------------------------------------------------------
    \1\ In these cases, the claimant may request that VETS cease 
investigative action after 60 days and appeal to MSPB directly on the 
61st day after VETS' receipt of the claim.
    \2\ As reported in the Veterans' Preference Information Management 
System (Run Date October 30, 2015).

             Table 1. FY 2015 Veterans' Preference Cases /2/
------------------------------------------------------------------------
                                                 Number or Percentage of
            Category or Subcategory                       Cases
------------------------------------------------------------------------
Total Cases...................................                      640
Cases Carried Forward from FY 2014............                       34
Cases Opened During FY 2015...................                      606
  FY 2015 Opened Cases - Issue Hiring.........                      589
  FY 2015 Opened Cases - Issue Reduction in                          17
 Force........................................
Total Cases Closed During FY 2015.............                      590
  Percent of FY 2015 Cases Closed within 60                       97.5%
 days.........................................
  Percent of FY 2015 Cases Closed within 90                       98.3%
 days.........................................
  Average Number of Days Case Was Open........                       23
------------------------------------------------------------------------


           Table 2. FY 2015 Veterans' Preference Case Outcomes
------------------------------------------------------------------------
            Category or Subcategory                  Number of Cases
------------------------------------------------------------------------
Total Cases Closed............................                      590
Cases Closed Due to ``Merit Finding''.........                       32
  Hiring......................................                       32
  Reduction in Force..........................                        0
Cases Closed Due to ``No Merit Finding''......                      371
  Hiring......................................                      359
  Reduction in Force..........................                       12
Cases Closed Due to ``Not Eligible''..........                       57
Cases Closed Due to ``Untimely Filed''........                       31
Cases Closed Due to ``Merit Determination Not                        99
 Made''.......................................
  Administratively Closed.....................                       31
  Claim Withdrawn.............................                       50
  Merit Undetermined..........................                        7
  Duplicate...................................                       11
Total Cases Converted to USERRA Claims........                        0
Total Cases Still Pending.....................                       50
------------------------------------------------------------------------

                               Conclusion
    The Department looks forward to working with the Subcommittee to 
ensure that Veterans' Preference in Federal government hiring remains 
strong. Veterans are some of our strongest and most capable employees 
in the public workforce and we are committed to making sure that they 
have a place at DOL and their preference rights are not violated. Mr. 
Chairman, Ranking Member, and distinguished Members of the 
Subcommittee, this concludes my written statement. Thank you for the 
opportunity to be a part of this hearing. I welcome your questions.

                                 <F-dash>
                Prepared Statement of Ms. Carin M. Otero
    Good afternoon, Chairman Wenstrup, Ranking Member Takano and 
Members of the Subcommittee. Thank you for your invitation to appear 
before the Subcommittee on Veterans' preference and the Department of 
Veterans Affairs' (VA) success in recruiting and hiring Veterans.
    I would like to highlight the Department's commitment to hiring 
Veterans. We believe that affording qualified Veterans a statutory 
preference in employment is not merely the obligation of a grateful 
Nation, it is also good government and good business. It gives VA an 
advantage in recruiting and retaining employees from a pool of the 
Nation's most highly motivated, disciplined and experienced preference-
eligible Veterans.
    VA is adamant about and consistent in ensuring the application of 
the existing Federal regulation, which requires the selection of all 
qualified preference-eligible Veterans over other individuals, when 
filling positions that are open to the general public. VA's internal 
hiring procedures are aligned with the Merit System Principles, of 
which the basis is to recruit qualified individuals from all segments 
of society and select and advance on merit, after fair and open 
competition. In addition to our hiring policies and procedures that 
address Veterans' preference, VA's Human Resources Oversight and 
Effectiveness Office evaluates compliance with Veterans' preference 
laws, regulations and policies, conducting onsite evaluations of human 
resources offices throughout VA. VA has focused on Veterans' hiring for 
many years. We track the employment of Veterans by facility throughout 
VA.
    We have launched various programs and initiatives which have 
resulted in VA placing in the top tier of agencies employing Veterans. 
As of February 29, 2016, more than 119,000, or just shy of 33 percent, 
of VA's 365,000 employees are Veterans. More than 100,000 of the 33 
percent are Veterans' preference eligibles, and 47,000, approximately 
12 percent, are disabled Veterans. VA proudly ranks first among non 
Defense agencies in hiring Veterans. VA regularly uses Veteran-specific 
special hiring authorities, such as the Veterans Employment 
Opportunities Act, the Veterans Recruitment Appointment, and 30 percent 
or more Disabled Veterans. We have also hired Veterans using the 
Schedule A authority for people with disabilities. In the first 5 
months of fiscal year 2016, VA hired 8,705 Veterans using a mixture of 
all of the above-mentioned authorities.
    The Department has established a strategic target of 35 percent 
Veterans for its employee population. One of the challenges that we 
face is the rate at which Veterans are leaving the Department. While 
recognized early on by the Office of Personnel Management (OPM) as 
having one of the better retention rates in government, the cohort of 
Veterans who joined the Department of Veterans Affairs after the 
Vietnam War is now eligible for retirement.
    In contrast, younger Veterans, similar to other U.S. workers their 
age, are frequently more mobile, changing jobs and employers more often 
than many older employees. On average, VA has lost about 1,300 Veteran 
employees per month during this fiscal year through separations and 
retirements. Countering these losses, we have, on average, hired about 
1,740 Veterans per month during this fiscal year.
    Although the math on our Veteran gains versus losses on the surface 
does not depict a challenge, VA is measured by an OPM metric expecting 
no more than a 5 percent gap between retention of Veteran and non-
Veteran employees. Currently, our retention gap is more than 7 percent, 
with 2014 showing an 80.30 percent retention rate for non-Veterans and 
73.23 percent for Veterans. Also, there is an enormous cost to replace 
each employee and a loss of stability and efficiency as well. 
Additionally, there are indicators of a poor employee experience 
associated with the reasons for leaving the organization.
    In 2011, in support of Executive Order 13518 (Employment of 
Veterans in the Federal Government), VA established the Veteran 
Employment Services Office (VESO) within the Office of Human Resources 
and Administration. VESO supports the Interagency Council on Veterans 
Employment, created by the Executive Order, by recruiting qualified 
Veteran candidates for critical VA positions, managing retention 
initiatives and reporting the Veteran hiring and retention statistics 
for VA to the Council for inclusion in its annual report to the 
President. VESO's mission is to develop and implement innovative and 
comprehensive programs, procedures, and services to support VA and 
Federal Veteran recruitment and VA retention and reintegration.
    To execute the mission, VESO focuses on giving Veterans the tools 
to find Federal jobs, making the transition to civilian employment 
seamless, and improving Veteran engagement and satisfaction. Activities 
include: personalized one-on-one services to support Federal Veteran 
recruitment, support to retention efforts, support to Veterans 
throughout a deployment lifecycle, and providing Federal partners with 
services that support Veterans recruitment, retention and 
reintegration.
    In closing, every day at VA we see the sacrifices which Veterans 
have made for our Nation. It is our responsibility and privilege to 
support their return to civilian employment. We are committed to 
continue our robust and successful focus on Veterans' hiring in VA. 
Chairman Wenstrup, thank you again for the opportunity to testify 
today. I am prepared to respond to any questions the Subcommittee may 
have.

                                 <F-dash>
                 Prepared Statement of Mark D. Reinhold
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee:
    Thank you for your invitation to testify at the Subcommittee's 
hearing on veterans' employment in the Federal Government and about the 
Office of Personnel Management's (OPM's) role in the implementation of 
veterans' preference in the Federal hiring process.

Veterans' Employment Initiative

    This Administration has made it a priority to honor veterans for 
their service and sacrifice in defense of our Nation, including 
assisting them in re-entering civilian life and finding employment. In 
November 2009, President Obama issued Executive Order 13518, which 
clearly laid out three objectives: that we honor our obligations to our 
nation's veterans; that we use the talents of veterans to help the 
Federal Government meet today's dynamic challenges; and, that we create 
a model veterans employment program. The Order established the Veterans 
Employment Initiative to reinforce the commitment to enhance 
recruitment of, and promote employment opportunities for, veterans in 
the Federal workforce, consistent with merit system principles and 
existing veterans' preferences. \1\ In addition, the Order created the 
Council on Veterans Employment (the Council) to advise and assist the 
President on improving employment opportunities for veterans in the 
Federal Government. The Council is co-chaired by the Secretaries of 
Labor and Veterans Affairs, and the Director of OPM serves as Vice 
Chair. Twenty-four agencies are represented on the Council.
---------------------------------------------------------------------------
    \1\ https://www.whitehouse.gov/the-press-office/executive-order-
veterans-employment-initiative
---------------------------------------------------------------------------
    Veterans bring distinctive training, skills, leadership, and 
experiences that we need at every agency in the Federal government. An 
example is the increasing need we have for people trained in 
information technology and other technical areas. The Federal 
Government invests significant resources in the training and 
development of the brave men and women in our military. Efforts to hire 
transitioning military service personnel to positions in the Federal 
workforce helps maximize our return on this investment. Veterans 
possess a wide variety of skills and experiences, as well as a 
dedication to public service, that can be of enormous benefit to the 
Government as an employer and to the American people that these 
individuals will continue to serve. There are a number of skills gaps 
in the Federal workforce, including health care, information 
technology, and cybersecurity, that these individuals can fill 
immediately. Not only is hiring veterans the right thing to do, it also 
makes good business sense.
    In April 2014, the Council published its second Strategic Plan for 
Governmentwide Veterans Recruitment and Employment (the Strategic 
Plan). \2\ The Strategic Plan, which covers the period from Fiscal Year 
(FY) 2014 through FY 2017, builds on the Council's work to tackle 
barriers to veterans' employment in the areas of leadership commitment, 
skills development, marketing employment opportunities for veterans, 
and creation of a single-source information gateway for disseminating 
veterans' employment information. The current Strategic Plan added an 
additional emphasis on retention of veterans and reintegration of 
deployable Reservists or National Guardsmen.
---------------------------------------------------------------------------
    \2\ https://www.fedshirevets.gov/pdf/Vets--Initiative--Strategic--
Plan--2014.pdf
---------------------------------------------------------------------------
    These efforts have yielded good results since 2009. In FY 2014, 
33.2 percent of Executive Branch new hires were veterans, surpassing 
the FY 2013 rate of 31 percent. This was a 9.2 percentage point 
increase over the FY 2009 baseline of 24.0 percent. In FY 2014, as the 
number of total Federal employees onboard dropped from 2,015,000 in FY 
2013 to 1,990,000, the total number of veterans onboard saw an increase 
from 607,000 to approximately 612,000. Veterans currently represent 
30.8 percent of the Federal workforce, as compared to 25.8 percent in 
FY 2009. Last summer, OPM published a report, ``Employment of Veterans 
in the Federal Executive Branch, Fiscal Year 2014,'' demonstrating the 
improvements that have been made in employment opportunities for 
veterans in the Federal workforce. \3\ This report, issued on an annual 
basis and drawn from data in OPM's Enterprise Human Resources 
Integration-Statistical Data Mart, is in support of the Executive 
Branch's efforts to support the employment of veterans in the Federal 
government. In regard to diversity among new veteran hires in the 
Executive Branch, of the 33.2 percent of new veteran hires for FY 2014, 
25 percent were women, 66.2 percent were Caucasian/non-Hispanic, and 
27.2 percent had a rated disability of at least 30 percent.
---------------------------------------------------------------------------
    \3\ https://www.fedshirevets.gov/hire/hrp/reports/EmploymentOfVets-
FY14.pdf

---------------------------------------------------------------------------
Veterans' Preference

    Preference eligibility for veterans in Federal employment is 
defined in section 2108 of title 5, United States Code, and applies to 
new appointments in both the competitive and excepted service. While 
veterans' preference does not guarantee veterans a job and does not 
apply to appointments under merit promotion procedures or internal 
agency actions such as promotions, transfers, reassignments and 
reinstatements, it does provide a very useful tool in the application 
process for qualified candidates.
    Under 5 U.S.C. 2108, and supported by implementing regulations by 
OPM, certain types of active duty service may qualify for veterans' 
preference (i.e., preference eligible). \4\ There are three types of 
preference eligible (as defined by the points added to the veteran's 
passing examination score or rating):
---------------------------------------------------------------------------
    \4\ https://www.opm.gov/policy-data-oversight/veterans-employment-
initiative/vet-guide/#2

    <bullet>  10-point preference eligible
    oAn individual who served at any time and has a service-connected 
disability or has received a Purple Heart, and survivors or spouses of 
certain veterans.

    <bullet>  5-point preference eligible
    oAn individual with active duty service during certain time periods 
specified in law or who received an armed forces expeditionary or 
campaign medal.

    <bullet>  0-point preference eligible
    oAn individual who is released or discharged from a period of 
active duty from the armed forces, after August 29, 2008, by reason of 
a ``sole survivorship discharge.''

    In addition, only veterans discharged or released from active duty 
in the armed forces under honorable conditions (or, more recently, 
active duty members who certify through official documentation that 
they are expected to be honorably discharged or released within 120 
days) are eligible for veterans' preference. Retired members of the 
armed forces are not included in the definition of preference eligible 
unless they are a disabled veteran or they retired below the rank of 
major or its equivalent.
    The application of veterans' preference is provided for in statute, 
and depends on the ranking and selection process agencies use to select 
candidates for Federal employment. As part of improving the Federal 
recruitment and hiring process, in May 2010, President Obama directed 
agencies to use category rating for most competitive examinations for 
Federal employment. Under category rating, applicants who meet basic 
minimum qualification requirements established for the position and 
whose job-related competencies or knowledge, skills and abilities have 
been assessed are ranked by being placed in quality categories instead 
of being ranked in numeric score order. Preference eligibles are listed 
ahead of non-preference eligibles within each quality category. 
Veterans' preference is absolute within each quality category, which 
means a hiring manager cannot select a non-preference eligible over a 
preference eligible within the same category.
    An agency generally cannot bypass a preference eligible who meets 
the qualifications to perform the duties of the position and has 
achieved a passing score in order to appoint a non-preference eligible. 
However, if the hiring manager concludes that a preference eligible is 
not qualified to perform the duties of the job the manager may request 
to ``pass over'' the preference eligible. In most cases, the authority 
to decide to pass over a veteran is delegated to the agencies, except 
that OPM, by statute, must make the determination whether a veteran 
with a 30 percent or more service-connected disability may be passed 
over.
    The Federal Government has long been at the forefront of appointing 
veterans - particularly disabled veterans. OPM, through our Merit 
System Accountability and Compliance office conducts regular reviews of 
veterans hiring across the government to ensure that veterans are 
receiving the entitlements they have earned in the Federal hiring 
process. A veteran or other preference eligible person who believes 
that his or her rights under any law or regulation related to veterans' 
preference have been violated may file a written complaint with the U. 
S. Department of Labor's Veterans' Employment and Training Service. A 
disabled veteran who believes he or she has been discriminated against 
in employment because of his or her disability may file a 
discrimination complaint with the offending agency under regulations 
administered by the Equal Employment Opportunity Commission. In 
addition, the intentional failure by a government official to comply 
with veterans' preference requirements is treated as a prohibited 
personnel practice, which can be reported to the Office of Special 
Counsel for investigation and is grounds for disciplinary action.

Special Hiring Authorities for Veterans

    OPM encourages agencies to make full use of the various hiring 
authorities that can facilitate veterans' employment.
    Veterans' Recruitment Appointments (VRA) are an excepted authority 
that allows agencies to appoint an eligible veteran without competition 
if he or she: is in receipt of a campaign badge for service during a 
war or in a campaign or expedition; is a disabled veteran; is in 
receipt of an Armed forces Service Medal for participation in a 
military operation; or, is a recently separated veteran (within the 
last 3 years), and separated under honorable conditions. Individuals 
can be appointed under this authority at any grade level up to and 
including a GS-11 or its equivalent. After successful completion of 2 
years of Federal service, the employee is converted to the competitive 
service unless he or she is employed in a temporary (not to exceed 1 
year) or term (more than 1 year, but not more than 4) position.
    Agencies may also non-competitively appoint any veteran with a 30 
percent or more service-connected disability if they retired from 
active military service with a service-connected disability rating of 
30 percent or more or they have a rating by the Department of Veterans 
Affairs showing a compensable service-connected disability of 30 
percent or more. This authority can be used to make initial temporary 
or term appointments in the competitive service lasting at least 60 
days, and the veteran can be converted to a permanent appointment.
    In addition, though not specifically for veterans, the Schedule A 
authority for people with disabilities is an excepted authority that 
agencies can use to appoint eligible veterans who have a severe 
physical, psychological, or intellectual disability. Agencies can use 
this authority, at their discretion, to appoint individuals at any 
grade level and for any job (time-limited or permanent) for which they 
qualify. After two years of satisfactory service, the agency may 
convert the employee, without competition, to the competitive service.
    Finally, the Veterans Employment Opportunity Act of 1998 (VEOA) 
allows veterans to apply to job announcements that are otherwise open 
only to current or former Federal employees who completed requirements 
for career or career-conditional tenure. To be eligible to apply for a 
position under VEOA, the veteran's discharge must be issued under 
honorable conditions and he or she must either be a preference eligible 
or have completed 3 or more years of active service.

Veterans and Agency Education and Outreach

    In partnership with the Departments of Defense, Labor, Veterans 
Affairs, Homeland Security, and other Federal agencies, OPM created 
www.FedsHireVets.gov to serve as the principal source for Federal 
employment information to assist our Veterans, transitioning service 
members, their families, Federal Human Resources (HR) professionals, 
and hiring managers. The purpose of the site is to provide consistent 
and accurate Federal employment information, useful training, and other 
resources to better inform the applicant, the employee, and the hiring 
agency. This website is a critical component of the Federal 
Government's strategy to facilitate the recruitment, employment, and 
retention of Veterans.
    OPM has developed mandatory training for human resources personnel 
and Federal hiring managers on veterans' employment. The web-based 
training covers veterans' preference, special hiring authorities for 
veterans, non-competitive appointment eligibility for military spouses, 
and the Uniformed Services Employment and Reemployment Rights Act. The 
training is available through Human Resources University, the Federal 
Government's ``one stop'' training resource center for the Federal HR 
professionals, managed by OPM.

Hiring Excellence

    OPM recently launched the Hiring Excellence Campaign. Through this 
campaign, OPM will be working directly with agency hiring managers and 
human resources staff to help them identify skills gaps and find and 
recruit the best professionals to fill these positions. This allows us 
to hear directly from hiring managers and supervisors, while also 
giving us the opportunity to have discussions with Federal agencies 
about the tools already available to them, including those available 
for hiring veterans. We have also launched a Hiring Toolkit on HR 
University, which includes guidance on various hiring authorities and 
flexibilities, information about assessment techniques to evaluate 
applicants, and how to leverage data to inform recruiting and outreach 
strategies.
    Agencies are responsible for applying the law correctly so that 
preferences are not inappropriately withheld or granted. Agencies 
should ensure that their job vacancy announcements accurately describe 
the position being announced and that they have appropriately described 
the qualifications required to successfully perform the duties of the 
job. Agencies should also apply effective assessment approaches that 
help distinguish the best qualified candidates from the overall 
applicant pool. Agencies are encouraged to define threshold proficiency 
levels or requirements (beyond simply meeting minimum qualifications) 
that an applicant must meet in order to be considered further for a 
position. This will not only assist agencies in their ability to 
recruit qualified individuals capable of effectively meeting their 
missions, but also helps ensure that the process is carried out 
transparently and reduces any perception of unfairness.
    The work and mission of the Federal Government has become more 
complex, as we continue to ensure the safety of our information 
systems, the security of our borders, and the health of our veterans, 
and we must have the workforce with the right skills to meet the 
challenges we face. To that end, OPM is leading efforts to ensure that 
agencies are recruiting and hiring the best possible talent and leaders 
to facilitate a smarter, more innovative, and more accountable 
government for its citizens. Achieving and maintaining a world-class 
workforce to serve the American people depends on the ability to 
recruit and hire the most talented and diverse workforce possible, and 
that includes our nation's veterans.

Conclusion

    Since 2009, significant progress has been made to enhance 
employment opportunities for veterans in the Federal government, thanks 
to the efforts across government to implement the Veterans' Employment 
Initiative, but we know that challenges remain and improvements can be 
made. As we implement the Governmentwide Veterans Recruitment and 
Employment Strategic Plan, we will continue to focus on helping 
agencies develop workforce management strategies to advance the goals 
of the Initiative and to reaffirm the commitment to advancing economic 
opportunities for our Nation's veterans. As OPM works to meet our 
mission to recruit, retain, and honor a world-class workforce, 
providing the highest quality service as America's model employer for 
the 21st century we will continue to focus on helping agencies bring in 
skilled and diverse employees with the best talent to serve the 
American people.

                                 <F-dash>
                  Prepared Statement of Aleks Morosky
    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee, on behalf of the nearly 1.7 million members of the 
Veterans of Foreign Wars of the United States (VFW) and our 
Auxiliaries, I would like to thank you for the opportunity to testify 
on veterans' preference in federal government hiring.
    It is clear that veterans are an extraordinarily valuable asset to 
the federal government workforce. While veterans make up only nine 
percent of the adult population in the United States, they represent 
over 30 percent of federal government workers, with over 25 percent of 
those being preference eligible. According to the Office of Personnel 
Management, these numbers have climbed steadily in recent years. While 
veteran employees do seem to be concentrated in certain federal 
agencies such as Defense, Veterans Affairs, and Homeland Security, 
nearly all agencies have consistently increased the percentages of 
veterans they employ each year since 2009.
    It makes sense that veterans would gravitate towards federal 
employment, as many of them see civilian public service as a way to 
continue serving their country after the military. The real winner, of 
course, is our nation, whose federal workforce benefits greatly from 
the experience, patriotism, and values that veterans bring with them to 
their civilian careers. For this reason, we believe that the federal 
government must continue doing all it can to recruit, hire and retain 
as many veterans as possible.
    Although the data indicates that the veterans' preference is a 
successful program, there are certain opportunities for improvement 
that we have identified. First and foremost, we strongly support 
amending veterans' preference to ensure veterans who served in the 
Guard and Reserves are afforded the same hiring preferences as their 
active duty counterparts. Currently, veterans who served after 
September 11, 2001, are required to have served at least 180 
consecutive days on active duty. We believe that this is inconsistent 
with the way the Department of Defense (DOD) has utilized the Reserve 
Component in recent years. In the Post-9/11 era, National Guard and 
Reservists are frequently called to active duty for short periods of 
time in order to support deploying units, providing training support, 
and backfilling their duties at home duty station. These contributions 
have been critical to DOD's ability to fight the Global War on Terror 
with an all-volunteer force. For this reason, we strongly support 
changing the eligibility for veterans' preference to 180 cumulative 
days on active duty for veterans who served after September 11, 2001.
    As for the feedback we receive from VFW members, the most common 
complaints are from veterans who applied for federal employment but 
were not hired. We find that there is a common perception in the 
veterans' community that veterans' preference all but guarantees 
federal employment. This, of course, is not the case, as veteran 
applicants must still meet basic job qualifications and be ranked based 
on their job-related competencies when applying for a position. The 5 
and 10 point preference functions as more of a tiebreaker, rather than 
a guarantee of employment in all cases. We find that veterans also 
commonly assume that if they are not hired, then it must mean that a 
non-veteran was hired instead. While the veterans' preference makes it 
far more likely that a veteran will get an interview, it is not 
uncommon for several preference eligible veterans to interview for the 
same position.
    To address these misconceptions, we suggest that the Transition 
Assistance Program (TAP) be reviewed to ensure that proper training is 
being offered on veterans' preference. This should include both the DOD 
module, and the Department of Labor's online version of TAP. Although 
it is already part of the curriculum, it is apparent to us that many 
veterans remain unclear on what it means and how it is administered.
    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Subcommittee members may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, the VFW 
has not received any federal grants in Fiscal Year 2016, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                                 <F-dash>
                 Prepared Statement of Daniel P. Smith
    Simply stated, Veterans' Preference is a rising tide that lifts all 
boats. Because the Armed Forces are comprised of people from every walk 
of life in the United States, so is Veterans' Preference. This benefit 
does not discriminate. Veterans' Preference includes veterans from 
every socioeconomic class, gender, religion, ethnicity, sexual 
orientation and creed. Veterans' preference is fair, and aims to help 
our veterans obtain employment all while furnishing the U.S. government 
with qualified candidates and personnel.
    Chairman Wenstrup, Ranking Member Takano, and distinguished members 
of the subcommittee; On behalf of our National Commander, Dale Barnett, 
and the over 2 million members of The American Legion, we thank you for 
this opportunity to testify regarding The American Legion's positions 
on Veterans' Preference before this committee.
    Veterans' Preference is triggered when a hiring manager is deciding 
between two equally qualified candidates, where one is a civilian and 
the other is a servicemember or veteran. Veterans' Preference requires 
a veteran must be fully qualified for the position being sought. The 
preference was not and is not designed to force agencies to hire a 
veteran simply because they are a veteran.
    When the system in place is working, more veterans are employed, 
which is obviously a goal of The American Legion. However, when the 
system fails, perhaps because a hiring manager chose not to select the 
veteran, even though they are equally qualified, it is extremely 
difficult to know if ignoring Veterans' Preference was the reason. The 
culture of seeking employment is filled with customs dictating 
interview etiquette. Candidates are trained to balance aggression and 
avoid coming on too strong. In some situations it is not considered 
proper to ask why you did not get the position you were seeking. 
Because of these customs it can be hard for a veteran to definitively 
say they did not receive Veterans' Preference.
    Veterans' Preference is important however, and a great benefit to 
the government, or indeed any organization, to stock their employee 
ranks with qualified veterans. The government has already invested a 
great deal of resources in training veterans during their military 
service, and that training can be put to use in further service of the 
government. Common military training includes, but is not limited to, 
the ability to work well within a team, unparalleled work ethic, 
dedication and many other attributes an employer wants in an employee. 
The initial investment made by our government in our servicemembers and 
veterans still continues to pay dividends as these people are still 
working for the government and using their training to benefit the 
country and the American tax payer.
   The American Legion supports veterans' preference in the federal, 
                       state, and private sector:
    One of the reasons Veterans' Preference was established was to 
assist our nation's veterans, who joined the military and were not 
typically exposed to standard professional social settings. Veterans' 
Preference accounts for this by giving them inroads into government 
employment that will allow them to learn the soft personal skills that 
their civilian counterparts learned early on. Absence from the highly 
competitive job market due to military service creates an unfair and 
unequal burden on veterans in competing for employment with non-veteran 
peers upon completion of military service. Veterans' Preference was 
created to help restore the place of veterans on equal footing with 
their civilian counterparts by giving them an advantage.
    One area in particular The American legion has been working to 
assist servicemembers and veterans happens to deal with an antiquated 
Department of Defense policy. The policy (5 U.S.C. 3326) stated that a 
separating servicemember could not obtain employment at the DOD for a 
minimum period of 180 days. Fortunately, Representative Derek Kilmer 
authored and introduced H.R 4527, the Military Retiree Employment Act. 
This common sense legislation removes the 180 day hold off and permits 
the DOD to hire qualified and experienced personnel. The American 
Legion, through Resolution 350 \1\ was able to support Rep. Kilmer's 
bill, and we encourage the House of Representatives to consider this 
proposed legislation.
---------------------------------------------------------------------------
    \1\ Resolution No. 350 ``Veterans Employment Initiative'' (August 
2014)
---------------------------------------------------------------------------
    That said, The American Legion does not only support Veterans' 
Preference in the federal government, but also within the state and 
public sectors. Veterans' Preference is mandated at the federal level, 
and though we would not suggest the private sector be forced to hire 
veterans, we certainly encourage them to investigate and implement 
their own level of veterans' preference. Many companies and 
organizations already do this, including The American Legion. It is 
worth highlighting that The American Legion does not only advocate for 
veterans at the federal level, where it's mandated, but at every level. 
Veterans are a very unique and dynamic group of people who understand 
and typically possess a great work ethic and know how to work under 
pressure and stressful conditions.

Where are the problem areas?:

    No veterans organization does as much as The American Legion to 
work to ensure veterans are getting hired and finding their proper 
place in the workforce. The American Legion annually conducts dozens of 
Hiring Fairs across the country in conjunction with the Chamber of 
Commerce. American Legion seminars provide expertise to veterans on 
constructing resumes and developing interview skills. The American 
Legion works to develop translators that can convert military skills 
into civilian resumes and link up qualified service members with the 
civilian jobs that need them. Through our research and dealings with 
Veterans Preference in the veterans community, we have found several 
small issues, which is to be expected in a large bureaucracy such as 
the federal government.
    One of the largest issues we've encountered deals with the 
reporting or complaint system that a veteran utilizes once they feel 
their benefits have been violated. Currently, when a veteran wishes to 
file a complaint, they have multiple options for reporting the possible 
infraction. A veteran can submit a claim to the Department of Labor 
Veterans Employment and Training Services (DOL VETS). They can report 
their complaint to the agency where they applied for the position. They 
can even report their concern to the Equal Employment Opportunity 
Commission (EEOC). Though having options is hardly ever viewed as a bad 
thing, The American Legion is concerned the possibility of not having 
one location for complaints to travel through may cause problems.
    For example, multiple reporting venues makes it difficult to track 
or consolidate information about possible Veterans' Preference 
violations. Compartmentalization of the information leads to stove 
piping which prevents broad analysis which would be helpful. Logically 
speaking, consolidating complaints through a single path makes the most 
sense, so if there are many issues with the same agency/office, it will 
be easier to recognize and correct, instead of complaints being divided 
among several offices.
    A secondary problem is illustrated by a recent example reported in 
the Federal Times. Sometimes agencies or sections of the government 
skirt or circumvent the Veteran' Preference regulations. According to 
an article a few weeks ago, ``.The Office of Special Council has 
launched allegations at the Export-Import Bank sought to illegally 
remove veteran applications from consideration for IT positions within 
its office.'' \2\ It is because of cases much like this that The 
American Legion believes Congress should conduct an investigation of 
all federal agencies and their individual practices of Veteran' 
Preference hiring \3\. An investigation of this sort simply aims to 
ensure the preference is being applied fairly, and not being avoided or 
being rewarded to those who do not deserve it. Veterans' Preference 
provides such a strong benefit to both veterans and the government that 
The American Legion absolutely believes it is important to investigate 
to ensure it is being properly applied and situations such as the 
recent problems with the Export-Import Bank do not arise.
---------------------------------------------------------------------------
    \2\ ``Allegations of Export-Import Bank dumping vet applicants 
emerge'' - Carten Cordell, Federal Times - March 16, 2016
    \3\ Resolution No. 322 ``Support an Investigation of Hiring 
Practices in the Federal Government'' - National Convention, Charlotte, 
NC - AUG 2014
---------------------------------------------------------------------------
    Finally, The American Legion is concerned about the potential 
impact of a bill currently being considered in the House of 
Representatives. H.R. 1964, the Air Traffic Controllers Hiring Act of 
2015, as it is currently written, may place another group on the same 
level as Veterans' Preference, and this raises warning flags for our 
members. According to the legislation, which we understand may be 
revised, people who graduate from Collegiate Training Initiative (CTI) 
may be given ``preferential consideration,'' just as veterans are. This 
may be an unintentional consequence of the legislation, but 
nevertheless, The American Legion believes that to be wrong and is 
willing to work to ensure the legislation does not damage the effects 
of Veterans' Preference. The American Legion's position has always been 
and will continue to be in favor of veterans and Veteran' Preference, 
and that no other preference should exist on the same level of 
preference. Attending or obtaining certain certificates or degrees are 
important and should be recognized for what it is that they do, raise 
the level of qualifications of a candidate, but this should not replace 
or counter Veterans' Preference.
    The men and women, regardless of rank, who have served our nation 
boldly gave up a large amount of their lives to do so. The reason for 
veteran' preference is to reward them and acknowledge that sacrifice 
over a civilian who did not take that oath and assist the veteran in 
giving them a hand up. The American Legion ``deplores each and every 
attempt to degrade, dilute or modify the historical precedence of 
giving job eligibility preference to those who are taken from their 
communities to serve their country in time of war.'' \4\
---------------------------------------------------------------------------
    \4\ Resolution No. 342 ``Support Veterans Preference in Public 
Employment'' - National Convention, Charlotte, NC - AUG 2014
---------------------------------------------------------------------------
    The American Legion has and will aggressively continue to support 
Veterans' Preference across the federal government. It is our belief 
that millions of veterans have served our nation honorably, and 
therefore should be rewarded properly and provided this common sense 
benefit as thanks for their hard work and sacrifice. As always, The 
American Legion thanks the Subcommittee Economic Opportunity for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization.
    For additional information regarding this testimony, please contact 
Mr. Matthew J. Shuman at The American Legion's Legislative Division at 
(202) 263-5755 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ff2ecf7eaf2fef1dff3faf8f6f0f1b1f0edf8">[email&#160;protected]</a>

                                 <F-dash>
                 Prepared Statement of Richard Weidman
    Good afternoon Mr. Chairman, Ranking Member Takano and members of 
the House Subcommittee on Economic Opportunity. On behalf of VVA 
National President John Rowan and all of our officers and members, we 
thank you for the opportunity for Vietnam Veterans of America (VVA) to 
appear here today to share our views on the implementation of Veterans 
Preference by the Department of Veterans Affairs as well as across the 
federal government.
    In our legislative agenda for the 114th Congress, VVA called for 
measures to strengthen Veterans' Preference laws, focusing on better 
implementation by and accountability of managers. Much of the problem 
with veterans' preference is in the implementation. VVA does commend 
the current Administration for their focus through the Office of 
Personnel Management (OPM) on hiring veterans, particularly young 
veterans. These efforts have met with success in many departments and 
agencies across the government, and dramatically increased the number 
of veterans working for the Federal government for the first time since 
President Reagan's second term. The honorable Constance Horner was 
Director of OPM. It was her commitment to veterans that spurred her to 
force the bureaucracy to do better in regard to honoring veterans' 
preference in hiring.
    President Obama's issuance of Executive Order (EOP) 13518 on 
November 9, 2009 has helped reinforce proper use of the Veterans 
Employment Opportunities Act (VEOA), as well as active utilization of 
other Federal hiring authorities to bring more veterans into the 
workforce. The percentage of veterans in the Federal workforce is now 
about a third of all Federal employees. While the initial impetus came 
from The White House, Director John Barry was personally and 
passionately involved in pushing for more veterans to be hired. The 
``Feds Hire Vets'' program has seemed to be of some assistance. The 
Council on Veterans Employment established by that same 2009 Order has 
also helped a great deal to focus the attention of the departments and 
agencies on hiring and retaining veterans.
    Despite all of the efforts expended to recruit and hire veterans, 
we still hear from young veterans that they cannot wend their way 
through the maze to find a job with the Fed. Additionally we hear from 
some who were hired and quit after a year or so because they were 
``bored'' or ``did not fit in.'' It seems clear to us that those who 
come straight from the military into the Fed need a mentor, perhaps an 
older veteran, to start learning to negotiate the corporate culture and 
procedures at that agency, as well as being able to understand the 
feelings and attitudes of the newer veteran.
    Setting up a formal orientation and mentoring program for veterans 
new to the organization has worked extremely well for many private 
employers, such as Prudential. It should definitely be tried in Federal 
agencies. Done properly, it will increase retention. Additionally, 
managers need to understand that the young veterans just out of the 
military are used to handling significant responsibilities, often in 
situations of life or death, depending on how well one does their job. 
The need to both challenge as well as support these veterans is crucial 
to their success, and to the overall success of the Federal entities.
    Also part of the VVA legislative priorities is the institution of 
contracting with service disabled veteran-owned small businesses that 
are veteran preference eligible veteran staffed call centers. The 
purpose of these call centers would be to collect reports of violations 
of veterans' preference in Federal departments and agencies, Further, 
these call centers could be utilized to do a real investigation of each 
alleged violation. The current system of having the Director of 
Veterans Employment & Training (DVET), United States Department of 
Labor receive and investigate all such complaints just does not work 
very well.
    Additionally, the institution of pro-active reviews of practices 
and patterns in the recruitment, hiring, and retention of veterans in 
each hiring authority location to the federal workforce would be a 
giant stride forward. As this is a new way to approach this, many 
details would need to be worked out.
    The Disabled Veteran Affirmative Action Program (DVAAP) should be 
scrapped. The DVAAP plans for federal entities are never effectively 
checked for the actual result against the stated ``goals'' at the end 
of each year. This thing serves no purpose except to be ``fig leaf'' 
for agencies doing nothing or little to hire disabled veterans and 
other veterans' preference eligible. Furthermore, veterans are not 
another affirmative action group, period.
    The main change to the actual VEOA is to delete the word 
``knowingly'' fro that section of the law. Nowhere in civil service or 
other law does it say that a manager cannot be punished if he/she did 
not know they were violating the individual's rights to veterans' 
preference. In the 18 years since passage of VEOA the number of 
managers reprimanded and otherwise punished for violating veterans' 
rights is in the single digits. This is absurd on the face of it.
    Thank you for allowing us to share our views on this vital issue 
with you here today. I would be pleased to answer any questions.
                      VIETNAM VETERANS OF AMERICA
                           Funding Statement
                             April 20, 2016
    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veterans' membership organization registered as a 501(c) 
(19) with the Internal Revenue Service. VVA is also appropriately 
registered with the Secretary of the Senate and the Clerk of the House 
of Representatives in compliance with the Lobbying Disclosure Act of 
1995.
    VVA is not currently in receipt of any federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.
    For Further Information, Contact: Executive Director of Policy and 
Government Affairs, Vietnam Veterans of America, (301) 585-4000, 
extension 127

                                 <F-dash>
                        Materials For The Record

                    REQUESTED BY CONGRESSWOMAN RICE
    The President's Council on Veterans Employment (the Council) has 
been tasked with carrying out the mission of the President's Veterans 
Employment Initiative (as established by Executive Order 13518), which 
directs the Federal agencies to enhance their recruitment and promotion 
of employment opportunities for veterans within the executive branch. 
The Secretaries of Veterans Affairs and Labor act as co-chairs of the 
Council, while the Director of the Office of Personnel Management 
serves as the vice-chair. On May 4, 2016, the co-chairs and the vice 
chair came together to host the eleventh meeting of the Council to 
highlight Government-wide progress and the future of the Veterans 
Employment Initiative.
    At the meeting, current data developments were shared documenting 
Federal government efforts in recruiting, hiring, and retaining 
veterans. Agencies are rated on their veteran employment performance 
using a new Veteran Employment Performance Model which rates agencies 
based on four veteran employment metrics: Veteran New Hires, Disabled 
Veteran New Hires, Veterans on-board, and Veteran Retention Rates. This 
performance model went into effect for FY 2015. The data below was 
shared at the Council meeting.

                                                     FY 2015 - Agency Veteran Employment Performance
                                                                4th QUARTER GROUP RESULTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Veteran New    Disabled        Total
                                                            Hires      Veteran New  Veterans On-   Veteran New   Non-Veteran
                     10K Employees                     --------------     Hires         Board         Hire        New Hire    FY-14 Rating  FY-15 Rating
                                                                     ----------------------------   Retention     Retention
                                                            20.7%         10.6%         15.9%         Rate          Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
               4th QUARTER GROUP RESULTS
Education.............................................        11.1%          4.8%         10.7%         79.7%         89.5%            NI            NI
HUD...................................................        23.4%         14.2%         15.2%         80.8%         85.1%            EX            EX
NRC...................................................        27.5%         10.4%         21.5%         88.0%         87.0%             E            EX
NSF...................................................        11.1%          4.2%          9.3%         68.4%         80.4%            NI            NI
OPM...................................................        25.5%         13.1%         23.3%         71.7%         77.4%            EX            EX
SBA...................................................        28.5%         16.5%         16.8%         67.2%         83.4%            EX            EX
USAID.................................................        17.9%         11.0%         14.7%         71.1%         85.3%            NI             E
--------------------------------------------------------------------------------------------------------------------------------------------------------


 
                                                                4th QUARTER GROUP RESULTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Veteran New    Disabled        Total
                                                            Hires      Veteran New  Veterans On-   Veteran New   Non-Veteran
                   10K-40K Employees                   --------------     Hires         Board         Hire        New Hire    FY-14 Rating  FY-15 Rating
                                                                     ----------------------------   Retention     Retention
                                                            29.5%         14.7%         17.7%         Rate          Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
               4th QUARTER GROUP RESULTS
DOL...................................................        38.2%         21.3%         21.3%         69.9%         84.4%            EX            EX
Energy................................................        35.8%         13.9%         23.8%         81.2%         86.7%            EX            EX
EPA...................................................        16.2%          8.3%          8.3%         83.9%         87.4%            NI            NI
GSA...................................................        24.5%         11.3%         21.4%         74.8%         78.8%            EX            EX
NASA..................................................        30.7%         16.7%         12.0%         73.2%         70.3%             E            EX
State***..............................................        31.8%         16.4%         19.5%         75.4%         85.2%            HE            EX
--------------------------------------------------------------------------------------------------------------------------------------------------------


 
                                                                4th QUARTER GROUP RESULTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Veteran New    Disabled        Total
                                                            Hires      Veteran New  Veterans On-   Veteran New   Non-Veteran
                   40K-80K Employees                   --------------     Hires         Board         Hire        New Hire    FY-14 Rating  FY-15 Rating
                                                                     ----------------------------   Retention     Retention
                                                            27.5%         12.0%         20.3%         Rate          Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
               4th QUARTER GROUP RESULTS
DOC...................................................        14.3%          4.8%         12.0%         69.9%         79.6%            NI            NI
DOI...................................................        16.6%          6.6%         16.8%         71.4%         78.3%            NI            NI
DOT...................................................        40.1%         16.3%         36.7%         81.4%         82.2%            EX            EX
SSA...................................................        38.9%         20.3%         15.6%         72.6%         80.7%            HE            HE
--------------------------------------------------------------------------------------------------------------------------------------------------------


 
                                                                4th QUARTER GROUP RESULTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Veteran New    Disabled        Total
                                                            Hires      Veteran New  Veterans On-   Veteran New   Non-Veteran
                  80K-250K Employees                   --------------     Hires         Board         Hire        New Hire    FY-14 Rating  FY-15 Rating
                                                                     ----------------------------   Retention     Retention
                                                            18.0%         7.1%          16.8%         Rate          Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
               4th QUARTER GROUP RESULTS
DHS...................................................        27.2%          9.8%         27.9%         76.9%         80.8%            HE            EX
HHS...................................................         9.1%          4.1%          7.3%         68.3%         77.5%            NI            NI
Justice...............................................        29.1%         10.0%         25.1%         76.7%         81.9%             E            EX
Treasury..............................................        12.7%          6.9%         11.2%         72.0%         85.0%            NI            NI
USDA..................................................        12.0%          4.6%         12.4%         66.9%         77.9%            NI            NI
--------------------------------------------------------------------------------------------------------------------------------------------------------


 
                                                                4th QUARTER GROUP RESULTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Veteran New    Disabled        Total
                                                            Hires      Veteran New  Veterans On-   Veteran New   Non-Veteran
                    250K Employees                     --------------     Hires         Board         Hire        New Hire    FY-14 Rating  FY-15 Rating
                                                                     ----------------------------   Retention     Retention
                                                            41.6%         19.6%         40.2%         Rate          Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
               4th QUARTER GROUP RESULTS
DoD...................................................        48.3%         17.9%         47.2%         74.3%         77.6%            EX            EX
VA....................................................        34.9%         21.3%         33.1%         71.6%         80.0%            EX            EX
--------------------------------------------------------------------------------------------------------------------------------------------------------
RATINGS: Exemplary (EX)      Highly Effective (HE)      Effective (E)      Needs Improvement (NI)
***State Dept. FY 2015 performance rating is based on self-reported data.




                                                                      [all]
                                                                      
                                                                      
                                                                      
                                                                      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
